<html>
<title> - THE WEAPONS OF MASS DESTRUCTION PROGRAM OF IRAQ</title>
<body><pre>[Senate Hearing 107-573]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-573
 
            THE WEAPONS OF MASS DESTRUCTION PROGRAM OF IRAQ

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2002

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
80-791 PDF                 WASHINGTON DC:  2002
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

               Judy A. Ansley, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                 MARY L. LANDRIEU, Louisiana, Chairman

EDWARD M. KENNEDY, Massachusetts     PAT ROBERTS, Kansas
ROBERT C. BYRD, West Virginia        BOB SMITH, New Hampshire
JOSEPH I. LIEBERMAN, Connecticut     RICK SANTORUM, Pennsylvania
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
JEAN CARNAHAN, Missouri              TIM HUTCHINSON, Arkansas
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky


                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

            The Weapons of Mass Destruction Program of Iraq

                           February 27, 2002

                                                                   Page

Cordesman, Dr. Anthony H., Arleigh Burke Chair and Senior Fellow, 
  Strategic Assessment, Center for Strategic and International 
  Studies........................................................     7
Duelfer, Charles A., Visiting Resident Scholar, Center for 
  Strategic and International Studies............................    92

                                 (iii)


            THE WEAPONS OF MASS DESTRUCTION PROGRAM OF IRAQ

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2002

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:37 p.m. in 
room SR-222, Russell Senate Office Building, Senator Mary L. 
Landrieu (chairman of the subcommittee) presiding.
    Committee members present: Senators Landrieu, Bill Nelson, 
Bingaman, Roberts, Hutchinson, and Collins.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; and Richard W. Fieldhouse, 
professional staff member.
    Minority staff members present: Charles W. Alsup, 
professional staff member; and Edward H. Edens IV, professional 
staff member.
    Staff assistants present: Thomas C. Moore and Nicholas W. 
West.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Christina Evans, assistant to 
Senator Byrd; Marshall A. Hevron and Jeffrey S. Wiener, 
assistants to Senator Landrieu; William K. Sutey, assistant to 
Senator Bill Nelson; Neal Orringer, assistant to Senator 
Carnahan; Brady King, assistant to Senator Dayton; George M. 
Bernier III, assistant to Senator Santorum; Robert Alan 
McCurry, assistant to Senator Roberts; James P. Dohoney, Jr., 
assistant to Senator Hutchinson; Kristine Fauser, assistant to 
Senator Collins; and Derek Maurer, assistant to Senator 
Bunning.

    OPENING STATEMENT OF SENATOR MARY L. LANDRIEU, CHAIRMAN

    Senator Landrieu. The Subcommittee on Emerging Threats and 
Capabilities will come to order. This hearing today is on 
Iraq's weapons of mass destruction program. I would like to 
welcome our distinguished panel that is with us today and thank 
all those who helped make this very timely hearing possible and 
successful, in advance of it happening. I am sure that what we 
learn today will be very helpful to us as policymakers.
    This is the first hearing of our subcommittee for this 
year. I am pleased to be here with my partner and Ranking 
Member, Senator Pat Roberts, to continue this subcommittee's 
important work in identifying the urgent threats to our 
security, and the capabilities we need to meet these threats.
    This subcommittee, started under Senator Roberts' able 
chairmanship, has focused on threats that were once considered 
emerging, or more remote in some people's minds, even 
hypothetical, but we held hearings and pressed on in 1999 and 
in 2000 in combating terrorism, preventing proliferation, and 
even in 1999 on biological weapons aimed at U.S. agriculture.
    Last year, 4 months before September 11, we held a hearing 
on the military's ability to respond to domestic terrorist 
attacks using weapons of mass destruction, and in the winter we 
addressed issues of bioterrorism and terrorist motivations. We 
learned through those hearings, but more pointedly we learned 
on September 11, that these threats have, indeed, emerged.
    Because of our scheduling today, I am going to ask Senator 
Roberts if he would go first with his opening statement. I will 
follow, he will be able to submit some of his questions in 
writing, and then we will proceed. He has an Intelligence 
Committee meeting that is running concurrent with this one, so 
at this time, I will recognize Senator Roberts.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Thank you, Madam Chairwoman, and I 
apologize to you and to the witnesses. I am doing a mea culpa 
that I said I would never do, and that is to abdicate early, 
but we do have an Intelligence Committee meeting in reference 
to Saudi Arabia. I had already actually prepared some specific 
questions for the witnesses that are there at this time, so I 
apologize to you, and I want to thank you for your leadership 
in holding this hearing. I want to thank the witnesses for 
taking time out of your very valuable schedules to come and 
testify.
    It is always helpful to hear from informed experts about 
the situation in Iraq. Over 15 years ago, a prominent U.S. news 
magazine ran a picture of Saddam Hussein on its cover with the 
caption, ``Most Dangerous Man in the World.'' Despite a long 
war with Iran in the mid-1980s, a devastating defeat by the 
United States in 1991, major revolts by the Kurds and the 
Shiite elements within his country, numerous coup attempts, 
wary neighbors, and a constant international application of 
sanctions, Saddam Hussein remains in power and continues to 
develop all of the weapons of mass destruction, threatening his 
own citizens and neighbors in the world.
    In his State of the Union Address to the Nation on January 
29, President Bush included Iraq as part of the now well-known 
axis of evil, along with Iran and North Korea. I understand 
that many, including some of our European allies, had some 
frustration and concern with this. Some even were very quick to 
criticize the President for applying this brand, suggesting 
that such a declaration is dangerous and provocative.
    Let me remind all those folks that President Reagan was 
heavily criticized when he labeled the Soviet Union an evil 
empire. I believe his words of resolve helped lead to the 
demise of the Soviet Union and the end of the Cold War, so I 
salute the President for having the courage to decisively 
confront the new evils that we face in this new century.
    I might add that having traveled with the President to 
Denver just a short time ago to talk to the American cattlemen, 
before he was on his way to Salt Lake City--and I do not think 
I am revealing any presidential classification here--he has no 
intent to ``go to war with Iraq.'' He simply indicated that he 
has informed the three countries that we know what they are 
doing, and they now know what we know. We know much of what 
they do in aiding and abetting the transnational terrorist 
organization sworn to kill us and to do great damage to western 
civilization. That is not permissible, and there will be a 
price to pay.
    Saddam Hussein and his regime, in my personal view, are 
evil and threatening. They use terror, torture, and weapons of 
mass destruction on their own people. They support terrorism 
around the world, and they continue to develop and proliferate 
weapons of mass destruction.
    I often ask witnesses what threats are so ominous that they 
keep them awake at night, and in this particular case I am 
going to answer my own question. This time, one of the things 
that does keep me awake is the thought that this evil man, 
Saddam Hussein, does possess weapons of mass destruction and 
the means to effectively deliver them, as our witnesses I think 
will testify to.
    From 1991 to 1998, the United Nations Special Commission on 
Iraq, of which Mr. Duelfer was an integral part, did make 
considerable progress in the monitoring and the dismantling of 
Iraq's WMD capability. In late 1998, however, as we all know, 
Iraq became increasingly defiant and stopped this cooperation 
with the weapons inspections, in defiance of the UN, in 
violation of its own pledge. Because of that refusal to 
cooperate, the U.S. attacked Iraqi WMD sites in December of 
1998 in a military operation called Operation Desert Fox. This 
operation did attack over 90 targets, mostly missile-related.
    I am not sure how effective this attack really was. By all 
accounts, the Iraqi efforts in increasing their capability of 
weapons of mass destruction have continued without any 
oversight over the last 4 years, and may well be accelerating.
    Our two witnesses have closely followed the developments in 
Iraq and the Middle East, and are well-qualified to bring us 
up-to-date on the recent developments. Thank you again for your 
willingness to testify. We look forward to your comments and a 
productive discussion.
    I would add only this in regards to what I have to say, 
Madam Chairwoman, and I again apologize for having to leave, 
but Dr. Cordesman has great expertise in NATO, and I thought 
either the full committee or the subcommittee could have him 
back. I think NATO is a very timely subject, and I look forward 
to visiting with him about NATO, but in reading his testimony, 
one of the things he points out is that the Gulf War did 
surprisingly little damage to Iraq's missile program or any of 
its chemical, biological, radiological, and nuclear programs.
    Second, he points out that they have lied to the UN and the 
world every time it was suitable for them in regards to 
increasing the probability that they would use these kinds of 
weapons. He also points out that Iran's conventional weakness 
pushes it toward the threat or use of chemical, biological, 
radiological, and nuclear (CBRN) weapons, and Saddam Hussein 
took massive risks involved. So he thinks if Saddam is in a 
more weakened state that perhaps it increases the risk of some 
attack, and then he also said Iraq may have the capability to 
attack agriculture as well as humans. I, for one, have been 
trying to convince this administration and my colleagues in the 
past administration of the danger of agriterrorism. It is so 
easy to do, and I want to thank you for including that in your 
testimony.
    Finally, the U.S. cannot count on Iraq ceasing to 
proliferate simply because of regime change. So much of the 
time we hear, Madam Chairwoman, that if we aid and assist in a 
change of regime, it automatically assumes that this threat 
would be lessened. As Dr. Cordesman has pointed out, that may 
be true, but it also may not be true.
    On the very last page of Mr. Duelfer's testimony, here is 
what Saddam says: ``If the world tells us to abandon all of our 
weapons and keep only our swords, we will do that. We will 
destroy all the weapons if they destroy all their weapons. But 
if they keep a rifle and then tell me I have the right to 
possess only a sword, then we would say no. As long as the 
rifle has become a means to defend our country against anybody 
who may have designs against it, then we will try our best to 
acquire the rifle.'' We all know what ``the rifle'' means in 
regards to what their capability would be.
    Mr. Duelfer goes on to say, as our other witness did also, 
of course, that the difference in the regime is everything. The 
present regime in Baghdad will not give up their weapons of 
mass destruction, even if inspectors go in again. The present 
regime will also remain quite willing to use them. Now, that is 
not an emerging threat, that is a threat.
    So with those comments, Madam Chairwoman, I again 
apologize, and I thank the witnesses.
    Senator Landrieu. Thank you, Senator Roberts, and I want to 
thank you for your able leadership over the last several years. 
I appreciate the contribution that you continue to make to this 
subcommittee's work.
    Let me begin by just reviewing very briefly the focus of 
our subcommittee for this year, because it goes without saying 
that we are living in dangerous times. It is the mission of 
this subcommittee to focus first on the likely threats that we 
face, not just the likely threats, but every threat, and 
second, on our capabilities, or the capabilities that our 
military and our Nation need to protect us from those threats. 
We will help our Congress through the work of this subcommittee 
to hopefully fashion our defense budgets to reflect the 
realities of those threats, and the capabilities that are 
necessary.
    In our subcommittee hearings over the next several weeks, 
therefore, we will focus on the most urgent threats--
proliferation and terrorism. We will explore how our Armed 
Forces can build their capabilities to more effectively counter 
extremists and groups who would strike out against Americans 
using weapons of mass destruction or conventional terrorism on 
the scale of the September 11 attacks.
    We will explore the capabilities of U.S. nonproliferation 
programs that are designed to reduce the likelihood that 
foreign nuclear, chemical, or biological weapons materials or 
the scientists with knowledge of weapons will fall into the 
hands of other nations or terrorist entities. We will look at 
the tremendous, unique capabilities of our Special Operations 
Forces in the current war and their potential future roles. We 
will also consider the capabilities of the chemical and 
biological defense programs that are meant to protect our 
military and our Nation against such deadly agents as anthrax.
    Finally, we will examine how the sum total of our 
military's capabilities can be harnessed by technology to 
transform our Armed Services into a 21st century force that is 
designed to meet these urgent and future threats. It is this 
subcommittee's formidable task to help allocate resources for 
programs in a way that help our Armed Forces respond to these 
threats appropriately and, I might say, effectively.
    In his State of the Union Address, President Bush indicated 
a particular concern for two threats that we face: 
international terrorism and proliferation of nuclear, chemical, 
and biological weapons, also known as weapons of mass 
destruction. The two phenomena become linked if states that 
have access to weapons of mass destruction intentionally or 
unintentionally make such weapons or technologies available to 
terrorist groups.
    That concern brings us to our meeting today. One of the 
nations President Bush highlighted in this regard was Iraq. We 
know, and the testimony by Senator Roberts just recapped and 
summarized what I am saying, but all we know from members and 
officials that have testified before this committee and others 
is that the Government of Iraq used chemical weapons in the 
1980s against its own people, the Iraqi Kurds, and against its 
neighbors. After the Gulf War we learned Iraq had both chemical 
and biological weapons ready to use, and has made considerable 
progress in developing nuclear weapons.
    During the Gulf War we tried to destroy Iraq's weapons of 
mass destruction facilities, at least the ones we knew about. 
After the war, the UN Special Commission on the ground in Iraq 
learned a great deal more about their programs and were able to 
oversee the destruction of much of them, but how much they were 
able to destroy is still subject to debate.
    Saddam Hussein never has fully cooperated with UNSCOM, and 
he kicked them out of Iraq in 1998. Since that time we have had 
no inspectors in Iraq, no access to their facilities. We have 
less information now, 3 years later, as to what the situation 
is, and that is part of what our meeting is about here today.
    We do know that the United Nations had sanctions in place 
for the last decade. Furthermore, various experts and 
policymakers at one time, including Secretary Powell, have said 
that without these sanctions it would be easier for Iraq to 
reconstitute its nuclear, chemical, biological, and missile 
programs. However, according to a recent statement by the 
Director of Defense Intelligence, the lack of intrusive 
inspection and disarmament mechanisms permit Baghdad to enhance 
WMD programs.
    CIA Director George Tenet has also declared that Saddam 
remains a threat. He is determined to thwart UN sanctions, 
press ahead with weapons of mass destruction, and resurrect the 
military force he had before the Gulf War. The CIA believes 
that Iraq is expanding its chemical and biological programs and 
pursuing other capabilities. There is clearly an urgent need to 
fully examine and access this particular threat. We should be 
deeply concerned about Baghdad's capabilities, because this is 
a state whose president declares that we are wicked and exhorts 
Arabs to unite and stand up against us.
    Saddam Hussein, regardless, is an enemy. That is clear to 
many of our allies, but the question is what means he is 
capable of using against us? What weapons could he and would he 
choose to wield against Americans or America? Finally, would he 
be willing to make weapons of mass destruction available to our 
terrorist enemies, and what is the likelihood of that?
    Through the testimony of our witnesses today, we hope to 
paint a clearer picture of this threat of nuclear, chemical, 
and biological weapons, and have a better assessment of his 
intentions. Ultimately, this hearing should help us determine 
the military and intelligence capabilities we need to combat 
this hostile regime.
    On the first panel we are very fortunate to have Tony 
Cordesman and Charles Duelfer, both from the Center for 
Strategic and International Studies. Dr. Cordesman has 
testified before this committee before. He is well-known as a 
former staff member for Senator John McCain, and he has gone on 
to distinguish himself in many other ways. He has a solid 
reputation of tracking the military capabilities of Iraq and 
its neighbors.
    Mr. Duelfer served as Deputy Executive Chairman of the UN 
Special Commission from 1993 until its termination, so he has 
first-hand knowledge of the subject that we are exploring 
today. Currently, he is a visiting resident scholar at the 
Center. He brings his extensive monitoring and arms control 
experience to our discussion.
    So let me at this point ask Senator Bingaman if he has an 
opening statement.
    Senator Bingaman. Madam Chairwoman, I will just wait to 
hear the witnesses. Thank you.
    Senator Landrieu. Senator Collins could not stay for the 
hearing today, but her opening statement will be made part of 
the record.
    [The prepared statement of Senator Collins follows:]

             Prepared Statement by Senator Susan M. Collins

    Thank you, Madam Chairwoman. Today, this subcommittee will hear 
testimony from individuals representing the Center for Strategic and 
International Studies and our Intelligence agencies to provide insight 
into the weapons of mass destruction (WMD) program of Iraq. This issue 
is an extremely important one. I share the concern of most Americans 
about the trends and developments associated with the continued 
proliferation of weapons of mass destruction and the missiles to 
deliver them, and that is why this hearing is so important.
    While Iraq's program is one of several WMD programs that exist 
today, Iraq's program is believed to be both well-established and 
hidden at the same time. It is the uncertainty surrounding the depth 
and capabilities of Iraq's WMD program that concerns me the most.
    Although there are uncertainties and unknowns associated with the 
Iraq WMD program, we do have some knowledge of the facts. First and 
foremost, it is a known fact that Iraq has had and will continue to 
proliferate its other weapons of mass destruction and missiles to 
deliver them. It is also known that this activity has been ongoing 
since, at least, 1973. Additionally, on the basis of the past 
experience, the world's experts conclude that Baghdad has reconstituted 
its prohibited WMD program, and it is suspected that Baghdad has active 
chemical and biological weapons programs.
    We also know that Iraq has rebuilt portions of its missile 
production facilities, and has attempted to purchase numerous dual-use 
items, supposedly for legitimate civilian use. However, I would not be 
surprised if these dual-use items were being diverted to further Iraq's 
WMD program capabilities. Iraq is also known to be aggressively 
pursuing a nuclear capability, and continues to acquire and develop 
advanced conventional weapons.
    With that said, the on-going challenge is to find ways to better 
understand the capabilities that Iraq currently has, and to determine 
and explore what strategic options exist to stop this proliferation now 
and in the future. The more we know, the better we are able to deter 
and detect terrorist activities similar to the events of 9/11.
    I do not believe that we will solve this action today, but I find 
it encouraging to see the United Nations Security Council and this 
administration engaged in this issue. I thank you for taking the time 
to testify before this subcommittee and I look forward to hearing your 
candid assessments of Iraq's WMD program, and hope to gain some 
additional insight into measures that can be taken to stop Iraq's 
proliferation. Thank you, Madam Chairwoman.

    Senator Landrieu. Thank you. We will begin, Dr. Cordesman, 
with your testimony.

STATEMENT OF DR. ANTHONY H. CORDESMAN, ARLEIGH BURKE CHAIR AND 
 SENIOR FELLOW, STRATEGIC ASSESSMENT, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Dr. Cordesman. Thank you very much, Senator. If you do not 
mind, I will ask that my formal statement and the attachments 
be included in the record and will just comment on a few points 
which I think may serve as an introduction.
    One thing we have to remember is that we have made almost 
three decades' worth of effort to fight proliferation in the 
Middle East. We may be focusing on current developments, but I 
can remember going to the battlefields after the October War 
and finding them covered with chemical defense gear for two 
sides which were prepared as far back as 1973 to begin a 
serious chemical war. In fact, Egypt used chemical weapons in 
Yemen as far back as the 1960s.
    Nations like Iran, Iraq, Egypt, Israel, Libya, Syria, and 
others have now been proliferating consistently for decades, so 
we are not talking about something which can be tied to a 
single country or even to a single part of the Middle East, and 
it certainly cannot be tied to a single type of weapon.
    I think, however, that virtually everyone would agree that 
Saddam Hussein has both been extraordinarily dedicated to 
proliferation and has been willing to make it the focus of his 
military capabilities and his state. It is particularly 
worthwhile, I think, to point out that during the Gulf War 
Saddam Hussein went so far as to prepare a launch-under-attack 
capability to use chemical or biological weapons.
    It was a crude capability. It involved dispersing weapons 
where they could be used to arm aircraft, although it may have 
involved some dispersal of missile warheads. But the fact that 
he was willing to go this far, and was willing to intermingle 
chemical and biological weapons with conventional weapons and 
with very unclear distinctions between types, indicates the 
level of risk he is willing to take.
    One of the key issues we face is that ever since the 
Israeli raid on Osirak he has demonstrated the ability to 
disperse his weapons, efforts to conceal them, to create 
underground and hardened structures with a high level of 
survivability, and to set up many duplicative efforts. So 
finding one or even two aspects of Iraq's activities may not 
reveal the scale of what he has done.
    We found out after the Gulf War that everything we said 
during the Gulf War about destroying his capabilities was 
wrong. Although the Department of Defense promised several 
times publicly that it would issue a damage assessment after 
our new series of strikes in Operation Desert Fox, there has 
never been any official assessment from the Department of 
Defense of the effectiveness of the strikes made during that 
operation. I think that is a warning not only in terms of the 
limits of military action, but of what inspection can do.
    I will not repeat some of the points that Senator Roberts 
made. I do not think it is worth pointing out in great depth 
that Saddam Hussein is a liar, but you cannot appreciate the 
scale of his lies until you read in detail through the UNSCOM 
reports. Year after year, and report after report, you find the 
sheer scale of Iraq's commitment to lying and concealing.
    These lies have current implications. Even if we get 
inspectors in again, we might well see a situation where Saddam 
would sacrifice some limited elements of his capabilities 
simply to allow the inspectors to find something and then 
leave. He will certainly disperse his capabilities even 
further. He might delay his operations in the face of new 
inspections, but frankly I cannot believe that he would stop.
    We should also be aware that there has been in the past far 
too much focus on Iraqi missiles as a possible system of 
delivery. It is unlikely to me that if Iraq has a nuclear 
device it can be lifted by a missile body. Missiles are not a 
particularly effective way to deliver biological weapons, and 
there are many other ways that these weapons can be smuggled or 
used. We need to be very careful to consider the full spectrum 
of delivery systems.
    We should also remember that Iraq's past efforts were 
designed to fight a theater-wide war against Iran. We have 
learned the hard way, however, that very small attacks using 
weapons of mass destruction can be extraordinarily disruptive 
and costly, and that we cannot really count on seeing visible 
warning indicators based on any repetition of the massive Iraqi 
effort that existed in 1990.
    There are several other uncertainties I would like to 
stress. I have heard Saddam always described as somebody who 
acts on pragmatic logic and risk perceptions. Well, I watched 
when he invaded Iran, and I watched when he invaded Kuwait, and 
that is not to me a guarantee of future pragmatism.
    We also need to be very careful about the fact that we 
cannot determine exactly what level of nuclear development has 
occured in Iraq, or what kind of device and weapon Iraq might 
use. If Saddam is willing to take risks, to use material with 
low levels of enrichment, to produce unpredictable levels of 
yield, or low yield and high radiation, the level of 
sophistication of such a nuclear device would be far simpler 
than the kind of sophisticated implosion devices and two 
weapons designs he had at the time of the Gulf War. I do not 
believe it is possible to conceal enrichment systems like 
centrifuges or diffusion facilities in small cells, but it is 
at least technically possible.
    In the case of biological weapons, we have to remember that 
10 years have gone by since the time of the Gulf War. Perhaps 
Charles can comment, but if they began a now covert effort 
after the Gulf War, focusing on dry, storable weapons, it is 
extremely unlikely that we could detect it. Such an effect 
could be very small and we know from past experience with wet 
biological agents that civilian facilities could be converted 
virtually from zero to mass production of the facilities in 
less than 6 months.
    I raise these points because when we talk about inspection 
I do not mean to imply that they might not be useful, but I 
think there is zero probability that new UN inspections could 
detect efforts of this kind, much less an effort to break out 
or suddenly deploy small amounts of chemical weapons like the 
VX to arm a few missiles.
    Iraq does not have an extensive known history of using 
terrorist organizations as proxies. I should comment, however, 
that this is a region filled with conspiracy theories, and with 
so many conspiracy theories it is certainly possible that Iraq 
will have conspiracies.
    One thing that also concerns me, partly because the 
Israelis constantly raise the issue, is the possibility that 
Iraq might this time attack Israel if it came under U.S. or 
other attack simply to try to drag it into a much broader war, 
and to complicate the situation or simply to poison the well in 
the aftermath of a broader conflict.
    I think we face four other major uncertainties. One is 
whether we can contain Iraq successfully once it slowly and 
systematically builds up its weapons of mass destruction. I do 
not believe the issue is the exact level of Iraqi capabilities 
today. I think it is the fact that the situation is virtually 
certain to deteriorate steadily over time.
    Second, I mentioned the issue of inspection. I simply see 
no possibility that any form of inspection without almost 
transparent human intelligence and full access to what the 
leadership knows would uncover a biological effort. You cannot 
prevent the technology base from existing, and in some areas 
like biological weapons you can reconstitute the effort 
virtually from zero in a matter of months.
    Third, I really am not sure what our targeting capabilities 
are. I have not seen recent evidence that we are better off 
today in our ability to find and target dispersed Iraqi weapons 
efforts and have a counterproliferation strike than we were, 
say, in 1991 or 1998.
    Finally, a point about regime change. I think any regime 
for Iraq would be better than Saddam Hussein. There is a very 
real possibility that if we acted in the aftermath of a war to 
overthrow Saddam, to create a stable Iraq, to help it develop, 
to create more democratic regimes, we would have a much better 
regime than Saddam Hussein. However, let me go back to history. 
For almost three decades, Iran, Iraq, Syria, Israel, and Libya 
have proliferated, and we now have Pakistan and India 
indirectly in the equation, so we need to be careful. 
Proliferation may or may not stop if Saddam goes.
    Thank you.
    [The prepared statement of Dr. Cordesman follows:]

             Prepared Statement by Dr. Anthony H. Cordesman

    At this point in time, no unclassified source can hope to 
accurately characterize Iraq's current holdings of weapons of mass 
destruction or the rate at which it can improve its present 
capabilities. At the same time several facts are clear. Iraq has a long 
and well-documented history of acquiring and using weapons of mass 
destruction. (This history is summarized in Attachment One.) In fact, 
proliferation has now been a major Iraqi objective for well over a 
quarter of a century.

                    IRAQ'S HISTORY OF PROLIFERATION

    Iraq's attempts at proliferation date back to at least the time of 
the October War in 1973, and it actively sought nuclear weapons for 
several years before the Israeli strike on its Osriak reactor in 1981. 
It stepped up its efforts to acquire chemical and biological weapons 
after it suffered its first serious round of reversals in the Iran-Iraq 
War in 1982, rushed to use chemical weapons as soon as it could deploy 
initial amounts of mustard gas, and escalated to far more serious uses 
of chemical weapons before the Iran-Iraq War ended.
    It chose to use chemical weapons against its own Kurds when some 
supported Iran. It rushed biological weapons forward at the same time, 
and it seems virtually certain that it would have used them if it had 
not defeated Iran so decisively in the spring of 1988. It rushed 
extended range Scuds into deployment and conducted a major missile 
campaign against Iran's cities, developed chemical and biological 
warheads for its missiles, and develop a family of much longer-range/
higher payload missiles.
    Iraq prepared to make massive use of chemical weapons during the 
Gulf War in 1990-1991, and disbursed its biological weapons so that 
they could be used in air strikes. It carried out a major series of 
conventional missile strikes on Israel and Saudi Arabia and prepared a 
``launch under attack'' option to use chemical and biological weapons 
if the leadership was threatened or saw a broad defeat as inevitable. 
It rushed forward its nuclear program, attempting to build at least a 
few weapons by the early 1990s. It refined biological weapons for 
agricultural attacks as well as attacks on human beings and looked at 
alternative means of delivery such as drones, crop sprayers, and 
helicopters.
    Sustaining these programs during the 1980s and through 1991 cost 
tens of billions of dollars at times when Iraq was effectively bankrupt 
and dependent on other Gulf states for its financial and military 
survival. The programs were massive in scale, and involved the 
development of delivery systems with far longer-ranges than were needed 
simply to cover Iran. They were part of an equally massive conventional 
military build-up, and seem to have been directed at regional 
dominance, not simply the defeat of Iran and invasion of Kuwait. They 
clearly would have given Iraq a capability to target Israel and Turkey 
and every U.S. base in the region with the exception of Diego Garcia.
    The Gulf War did surprisingly little damage to either Iraq's 
missile programs or any of its chemical, biological, radiological, and 
nuclear (CBRN) programs. The most damaging single U.S. strike was an 
accident when an aircraft struck a secondary target selected for other 
purposes. The U.S. lacked the ability to effectively target Iraqi CBRN 
and missile facilities and forces because of the highly covert nature 
of Iraq's programs--a problem the U.S. had not solved when it carried 
out equally ineffective strikes in December 1998 as part of Operation 
Desert Fox--and in spite of 8 years of UNSCOM inspections.
    Ever since the end of the Gulf War, Iraq has made its missile and 
CBRN programs its highest single national priority. It has been willing 
to accept more than a decade of continued UN sanctions, to suffer 
follow-on U.S. and British air strikes, to cripple its economic 
development and cause massive suffering for its people, and see its 
conventional forces massively deteriorate because of its lack of 
conventional arms imports. (The cost and nature of the deterioration in 
Iraq's conventional forces is shown in Attachment Two). In fact, there 
are strong indications that Iraq not only did everything possible to 
retain its pre-Gulf War capabilities in spite of UNSCOM inspections, 
but created new, highly compartmented, black programs in case UNSCOM 
could succeed in tracking down all of the programs it had in place in 
1991.
    Iraq has lied to the UN and the world every time this helped it to 
preserve its CBRN and missile weapons and facilities, and has been 
willing to suffer repeated diplomatic embarrassments in the process. 
The biggest of these lies was its denial of a massive biological 
weapons program between 1991-1995, but it has lied about its missile, 
chemical and nuclear weapons programs as well. It has been repeatedly 
caught importing or attempting to import dual-use items and CIA and 
Department of Defense reporting makes it clear that it continues to do 
so to this date.

                  THE CERTAINTY OF A CONTINUING THREAT

    Given this background, several things become clear:

        <bullet> Iraq is ruled by a regime of proven liars that will 
        lie again whenever this is convenient.
        <bullet> Iraq will never cease proliferating as long as the 
        present regime is in power.
        <bullet> Iraq does not perceive any moral or military 
        ``redlines'' that will prevent it from using CBRN weapons if it 
        feels this is expedient.
        <bullet> Iraq will continue to try to develop long-range 
        missiles but has long had other delivery options and will 
        almost certainly continue to improve them.
        <bullet> Iraqi proliferation will not be tied to one type of 
        weapon of mass destruction. It will seek chemical, biological, 
        radiological, and nuclear weapons.

    These points in some ways make Iraq's current missile and CBRN 
capabilities moot. The issue is not whether Iraq has yet achieved 
nuclear weapons or extremely lethal biological weapons, or even whether 
it will indulge in another round of UN inspections. It is that this 
regime will eventually acquire nuclear weapons and biological weapons 
with equal or greater lethality if it is given the time and opportunity 
to do so. It also will not change character or somehow enter the 
mythical ``family of nations.'' Its leadership has a grimly consistent 
record and set of goals, and the sons of Saddam Hussein have made it 
clear that Iraq has not even made a convincing public attempt to give 
up its claims to Kuwait or any of its other regional ambitions.

                           KEY UNCERTAINTIES

    At the same time, it is important to make several caveats about 
Iraqi capabilities and intentions:

        <bullet> Iraq has been more reckless than pragmatic in the 
        past, and its leadership must fully understand the risks of 
        using such weapons. However, Iraq's conventional weakness 
        pushes it towards the threat or use of CBRN weapons, and Saddam 
        Hussein took massive risks in invading Iran and Kuwait.
        <bullet> No one outside the intelligence community and possibly 
        within it can predict the point at which Iraq will get 
        deliverable nuclear weapons or predict their yield and 
        lethality.
        <bullet> The same is true of highly lethal dry storable 
        biological weapons, and of variants that are genetically 
        engineered or have no effective medical treatment.
        <bullet> Without an actual test or series of tests, neither we 
        nor the Iraqi leadership can predict the lethality of a nuclear 
        or biological weapon, of the reliability, accuracy, and 
        efficacy of any given means of delivery. (The technical and 
        historical data the U.S. has on weapons effects and lethality 
        are not reliable enough to do more than speculate in these 
        areas and errors of more than an order of magnitude are 
        possible.)
        <bullet> Iraq may or may not have the smallpox virus and the 
        ability to conduct a major infectious attack using covert or 
        asymmetric means. Such an attack could, however, have nuclear 
        lethalities and might be undetectable until it was well 
        underway.
        <bullet> Iraq has the technical capability to use a combination 
        of strike aircraft and/or residual missile forces to create a 
        launch on warning or launch under attack capability.
        <bullet> Iraq could probably covertly or directly mount a CBRN/
        missile attack on U.S. forces in Gulf ports, key facilities in 
        Southern Gulf states, and/or Israel.
        <bullet> Iraq does not have an extensive known history of using 
        terrorist organizations or proxies, but does have associations 
        with them, and there are no major barriers to such attacks. A 
        covert and/or unattributable attack is possible, particularly 
        under false flag conditions or ones where Iraq might be able to 
        piggyback on an attack by a known terrorist group.
        <bullet> Other nations, such as Iran, might in turn conduct 
        false flag attacks designed to implicated Iraq.
        <bullet> Iraq may have the capability to attack agriculture as 
        well as humans.
        <bullet> There is no way to determine how third countries would 
        react to the threat or reality of an Iraqi CBRN attack until 
        the event occurs. An Iraqi regime in extremis might attack 
        nations like Kuwait, Israel, and Saudi Arabia either out of 
        revenge or it an effort to broaden the conflict and preserve 
        the regime.

    The four most serious uncertainties, however, are not matters of 
what weapons Iraq has or how it might use them, but rather ones 
relating to the strategic options open to the U.S. First, they are 
whether U.S. containment can be successful in preventing Iraq from 
exploiting its CBRN capabilities. If the U.S. should lose its ability 
to enforce Operations Northern and Southern Watch and freedom of action 
in striking at those Iraqi capabilities it can identify, the answer is 
clearly no. The same may well be true if UN sanctions erode to the 
point where Iraq has much greater freedom of action in importing dual 
use items.
    The second uncertainty is whether any new round of UN inspections 
can really be successful in stopping Iraqi proliferation. The answer is 
probably no. They might well be able to stop Iraq from major 
development of missiles and their deployment, large-scale production of 
chemical weapons, and producing fissile material in any significant 
amounts. They cannot affect Iraq's technology base, they cannot hope to 
detect a covert biological program with nuclear lethalities, and they 
cannot hope to prevent Iraq from assembling a nuclear device if it can 
obtain fissile or ``dirty'' fissile material from outside Iraq. In 
fact, efforts directed at large, observable Iraqi CBRN and missile 
activities may simply push Iraqi into concentrating on biological 
weapons and asymmetric means of delivery.
    Third, it is uncertain that the U.S. can now do a more effective 
job of targeting Iraqi missile and CBRN facilities and weapons than it 
did during the Gulf War and Operation Desert Fox, in spite of the 
impressive advances in U.S. targeting and strike capabilities 
demonstrated in Kosovo and Afghanistan. Iraq is expert at camouflage, 
deception and the use of decoys, exploits dispersal and movement (shell 
games), creating duplicate and back-up systems, and creating small 
covert facilities. Preserving such residual capabilities would be 
particularly important in the case of biological and nuclear weapons.
    Finally, the U.S. cannot count on Iraq ceasing to proliferate 
simply because of regime change--even if the new regime initially 
appears to do so. Iraq is a highly nationalistic country that exists in 
a region where Iran, Israel, Pakistan, India, Syria, and Egypt are also 
proliferators. As is the case with a number of Asian powers like South 
Korea and Taiwan, Iraq may at a minimum preserve a sudden breakout 
capability in an area like biological weapons almost regardless of 
regime.

[GRAPHIC] [TIFF OMITTED] T0791.001

[GRAPHIC] [TIFF OMITTED] T0791.002

[GRAPHIC] [TIFF OMITTED] T0791.003

[GRAPHIC] [TIFF OMITTED] T0791.004

[GRAPHIC] [TIFF OMITTED] T0791.005

[GRAPHIC] [TIFF OMITTED] T0791.006

[GRAPHIC] [TIFF OMITTED] T0791.007

[GRAPHIC] [TIFF OMITTED] T0791.008

[GRAPHIC] [TIFF OMITTED] T0791.009

[GRAPHIC] [TIFF OMITTED] T0791.010

[GRAPHIC] [TIFF OMITTED] T0791.011

[GRAPHIC] [TIFF OMITTED] T0791.012

[GRAPHIC] [TIFF OMITTED] T0791.013

[GRAPHIC] [TIFF OMITTED] T0791.014

[GRAPHIC] [TIFF OMITTED] T0791.015

[GRAPHIC] [TIFF OMITTED] T0791.016

[GRAPHIC] [TIFF OMITTED] T0791.017

[GRAPHIC] [TIFF OMITTED] T0791.018

[GRAPHIC] [TIFF OMITTED] T0791.019

[GRAPHIC] [TIFF OMITTED] T0791.020

[GRAPHIC] [TIFF OMITTED] T0791.021

[GRAPHIC] [TIFF OMITTED] T0791.022

[GRAPHIC] [TIFF OMITTED] T0791.023

[GRAPHIC] [TIFF OMITTED] T0791.024

[GRAPHIC] [TIFF OMITTED] T0791.025

[GRAPHIC] [TIFF OMITTED] T0791.026

[GRAPHIC] [TIFF OMITTED] T0791.027

[GRAPHIC] [TIFF OMITTED] T0791.028

[GRAPHIC] [TIFF OMITTED] T0791.029

[GRAPHIC] [TIFF OMITTED] T0791.030

[GRAPHIC] [TIFF OMITTED] T0791.031

[GRAPHIC] [TIFF OMITTED] T0791.032

[GRAPHIC] [TIFF OMITTED] T0791.033

[GRAPHIC] [TIFF OMITTED] T0791.034

[GRAPHIC] [TIFF OMITTED] T0791.035

[GRAPHIC] [TIFF OMITTED] T0791.036

[GRAPHIC] [TIFF OMITTED] T0791.037

[GRAPHIC] [TIFF OMITTED] T0791.038

[GRAPHIC] [TIFF OMITTED] T0791.039

[GRAPHIC] [TIFF OMITTED] T0791.040

[GRAPHIC] [TIFF OMITTED] T0791.041

[GRAPHIC] [TIFF OMITTED] T0791.042

[GRAPHIC] [TIFF OMITTED] T0791.043

[GRAPHIC] [TIFF OMITTED] T0791.044

[GRAPHIC] [TIFF OMITTED] T0791.045

[GRAPHIC] [TIFF OMITTED] T0791.046

[GRAPHIC] [TIFF OMITTED] T0791.047

[GRAPHIC] [TIFF OMITTED] T0791.048

[GRAPHIC] [TIFF OMITTED] T0791.049

[GRAPHIC] [TIFF OMITTED] T0791.050

[GRAPHIC] [TIFF OMITTED] T0791.051

[GRAPHIC] [TIFF OMITTED] T0791.052

[GRAPHIC] [TIFF OMITTED] T0791.053

[GRAPHIC] [TIFF OMITTED] T0791.054

[GRAPHIC] [TIFF OMITTED] T0791.055

[GRAPHIC] [TIFF OMITTED] T0791.056

[GRAPHIC] [TIFF OMITTED] T0791.057

[GRAPHIC] [TIFF OMITTED] T0791.058

[GRAPHIC] [TIFF OMITTED] T0791.059

[GRAPHIC] [TIFF OMITTED] T0791.060

[GRAPHIC] [TIFF OMITTED] T0791.061

[GRAPHIC] [TIFF OMITTED] T0791.062

[GRAPHIC] [TIFF OMITTED] T0791.063

[GRAPHIC] [TIFF OMITTED] T0791.064

[GRAPHIC] [TIFF OMITTED] T0791.065

[GRAPHIC] [TIFF OMITTED] T0791.066

[GRAPHIC] [TIFF OMITTED] T0791.067

[GRAPHIC] [TIFF OMITTED] T0791.068

[GRAPHIC] [TIFF OMITTED] T0791.069

[GRAPHIC] [TIFF OMITTED] T0791.070

[GRAPHIC] [TIFF OMITTED] T0791.071

[GRAPHIC] [TIFF OMITTED] T0791.072

[GRAPHIC] [TIFF OMITTED] T0791.073

[GRAPHIC] [TIFF OMITTED] T0791.074

[GRAPHIC] [TIFF OMITTED] T0791.075

[GRAPHIC] [TIFF OMITTED] T0791.076

[GRAPHIC] [TIFF OMITTED] T0791.077

[GRAPHIC] [TIFF OMITTED] T0791.078

[GRAPHIC] [TIFF OMITTED] T0791.079

    Senator Landrieu. Thank you very much.
    Mr. Duelfer.

  STATEMENT OF CHARLES A. DUELFER, VISITING RESIDENT SCHOLAR, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Duelfer. Thank you. I will try not to repeat many of 
the points that Tony made. I am in agreement with much of what 
he said. Let me begin by talking a little bit about the 
incentives that the regime has.
    One of the aspects of UNSCOM's work in Iraq was to 
understand in detail the concept of use, the rationale, and the 
decisions which were taken to acquire these weapons. From the 
beginning, through our existence there, and until 1995, Iraq 
refused to describe those concepts, requirements, and so forth, 
the types of decisions that you and this committee take when 
you reflect upon the United States' defense programs.
    But after Hussein Kamal, Saddam Hussein's son-in-law, 
defected in August 1995, all of a sudden Iraq became for a 
short period of time quite cooperative, largely because they 
were concerned that Hussein Kamal, who had been in charge of 
all these weapons programs, would spill the beans when he was 
in Jordan. In point of fact they were partially correct on 
that. In any case we had a very interesting meeting one evening 
where Iraq finally did discuss where these programs came from, 
who made the decisions, and why they were important to the 
regime.
    As Tony has pointed out, in essence the regime believes it 
owes its survival to the possession of these weapons in a war 
with Iran. Iran was deploying human wave attacks on the 
southern front near Basra. Large numbers of Iranians would 
storm across the border, and Iraq could not defend against that 
except by using large numbers of chemical munitions. Iraq 
described to us that they consumed 101,000 chemical munitions. 
These were artillery rounds, aerial-delivered bombs and 
artillery rockets, filled mostly with sarin, but also mustard 
gas. So they used a lot. It saved the regime in that war.
    More interestingly, however, I also explored with them the 
dynamics that weapons of mass destruction played in the second 
Gulf War. Again, they played a very important role. They were 
not used, but as in the Cold War they played a very important 
role.
    You will recall that Secretary Baker met with Deputy Prime 
Minister Tariq Aziz in January 1991, before the war. One key 
point of his discussion was to warn the Iraqis and Tariq Aziz 
that, ``if you use chemical or biological weapons, we will 
respond overwhelmingly, and it will be regime-ending.'' The 
Iraqis did not use these weapons even when they were losing, 
and I asked them why, and the long and the short of it was that 
Saddam thought that he would not survive. So the message 
worked. Saddam was deterred.
    But at this meeting with very senior Iraqis, including 
ministers, they went on to describe how before the war they 
loaded not just aerial bombs but missile warheads with chemical 
agent and biological agent. They described the agents as 
aflatoxin, anthrax, bofullinim toxin, and nerve agents. They 
dispersed them to five locations. Warheads were at two and the 
aerial bombs were at three others. Then they said they were 
predelegated the authority to use them under certain 
circumstances.
    So I asked them ``under what circumstances?'' They said, 
``If the Americans went to Baghdad.'' They described the 
targeting, and then they added that it worked. The Americans 
did not go to Baghdad. So from the Iraqi perspective, the 
possession of these weapons saved the regime once again because 
it kept the Americans from going to Baghdad. It is not an 
illogical concept.
    Of course, it was a monumentally depressing moment, as an 
inspector who is trying to get them to give up these things, 
because at that point I think it dawned on us that this was not 
just an uphill battle, it was an impossible battle. Tariq Aziz 
would regularly point out to us that ``You are not General 
MacArthur. You did not occupy Iraq. Therefore, there are limits 
to what you can do.''
    They have a very refined sense of the use of force. They 
understand what an opponent is willing to pay and what it is 
not willing to pay. They understood that if we did not occupy 
Iraq, there were limits that the United States and the 
coalition were not going to go beyond, and that left us, the 
inspectors, out dangling. We were seeking to cause them to give 
up weapons which they considered vital to their national 
security. It was coercive disarmament, not arms control.
    The Iraqi regime will often try to cause this to morph into 
an arms control discussion, which it is not. This is coercive 
disarmament. Iraq fought a war, they lost, and they are 
supposed to give up these weapons.
    So I say all this by way of explaining just how important 
these capabilities are to the regime. They are not going to 
give them up, under any circumstances that I can imagine, 
without conflict. Certainly, as we learned in December 1998, 
they found that the price which the coalition and, in 
particular, the United States was willing to cause them to pay 
was worth it. In other words, they endured 4 days of bombing of 
some set of targets. That was fine by them. They got rid of the 
inspectors; they have the weapons.
    Let me talk just very briefly about the missiles and other 
weapons which, in my judgment, remain. When we finished our 
work, there were a lot of unresolved issues. In the missile 
area, let me just summarily say that I suspect strongly that 
there is a strategic reserve of SCUD variant missiles left, on 
the order of a dozen or so. These are modified SCUD missiles 
which had been provided by the former Soviet Union, or produced 
in Iraq's own indigenous missile program. They had proceeded 
pretty far in getting a capability of building their own SCUD-
like missiles.
    In addition to that, they have been permitted by the UN 
resolutions to build missiles up to a range of 150 kilometers. 
As the Iraqis themselves have pointed out, the technology and 
skills required to make a missile go 150 kilometers are not 
terribly different from those required to make a missile go 
much further, so it was our judgment and our suspicion that 
embedded in the permitted program were activities to support 
longer range missiles. Certainly, we discovered the Iraqis had 
the desire for longer range missiles.
    They had paper plans for missiles going as far as 3,000 
kilometers. There was a program called the Al Abbas, which was 
a derivative of the SCUD technology and was planned to go 900 
kilometers. My judgment would be that these development 
programs continue in earnest.
    There are a couple of caveats on this--there were some 
technological hurdles they faced. One was guidance and one was 
some of the engine components, particularly turbines. Staging 
was a problem, and also--and this bears on the effectiveness of 
some of these weapons--warhead-fusing. The warheads which they 
deployed, the ones which they had predelegated the authority to 
use, were designed for impact-fusing. It's not a very efficient 
way of dispersing either chemical or biological agents. It 
might kill some people locally. It would certainly scare a lot 
of people, but in terms of causing a large number of deaths, 
that's not the best way. I think it would be wise to watch for 
any type of experiments with warhead-fusing in their ongoing 
program.
    In the chemical program, the large uncertainty which we had 
at the end of our work in 1998 was over VX. Iraq denied that it 
had weaponized VX as an agent. This is a very advanced nerve 
agent. We found, to the contrary, that they had put VX in 
missile warheads. My guess is that they have the capability to 
deploy VX-armed artillery or bombs. We had unaccounted for 
precursors, the chemicals which you need to make the final 
agent. I think Iraq has the capability indigenously to produce 
sizeable amounts of chemical agent with strategic warning.
    Chemical weapons in some ways are particularly useful in 
battlefield circumstances, as Iraq demonstrated in the Iran-
Iraq War. But they are, I think, a manageable threat in a 
sense, so in some ways that is less of a problem.
    The real problem that I see is in the biological area. We 
never got a full understanding of the program. Iraq had two 
major difficulties in trying to present a public and verifiable 
picture of what they did. One was the origin of the program. 
That was in the security services, and these were parts of the 
Iraqi Government that they did not want any light shown upon at 
all. Nevertheless, that is where these programs were born.
    Second was the rationale and the purposes of these 
programs. They could not describe the purposes as military. It 
made no sense to produce an agent like aflatoxin. Aflatoxin is 
something which causes cancer over a period of years. The best 
military rationale is, it might prevent a lieutenant from 
becoming a colonel, but this made no sense whatsoever, 
especially when you look at some of the research and 
development efforts that Iraq conducted. They did things like 
mixing aflatoxin with CS, which is normally considered a riot 
control agent. Why would you do that? This infers a rather 
insidious mind set. In other words, are they developing a way 
of dispersing long-term lethal agents in ways that you will not 
know it.
    They also examined agents for agricultural weapons, 
including wheat smut. So clearly they had a range of 
objectives, perhaps military, but perhaps much more insidious 
terrorism and other reasons for these weapons. We need to be 
looking out for that.
    I would also comment on Senator Roberts' attention to 
agricultural weapons. Last year, there was this terrible foot 
and mouth disease outbreak in the U.K. and I think it is highly 
illustrative of how effective an agricultural weapon could be. 
This case appears to be caused by some pig from South Africa or 
something. There is no reason to believe that it was caused by 
a country, but it is illustrative of something that could 
easily be caused by a country--and we might not know it.
    Finally, I want to make a couple of comments about the 
Iraqi nuclear program, and where it may be headed. The nuclear 
program fortunately was never achieved by the Iraqis. In spite 
of a lot of effort, resources, and thousands of people devoted 
to it, they did not get a weapon. They had a good design. They 
almost got a weapon, but they did not.
    Towards the end of our work, we were looking around to see 
where some of the key people that were involved in the nuclear 
program were located. They were reemerging in clusters. They 
were clustering in areas where they had similar expertise, at 
state establishments and key defense factories. It appeared to 
us not coincidental. In other words, it appeared that the 
nuclear team was reassembling from 1998 onward.
    Now, how far they are going and how far they have gotten is 
an open question. There is some limited reporting by defectors, 
some of whom have gone public, that the program continues. 
Similarly, there is defector reporting in each of the other 
areas which confirms that these programs are continuing and 
weapons exist, and that the nuclear program is the biggest 
risk, but fortunately is also unlikely to be achieved in the 
short term.
    On Iraqis who leave Iraq, it seems to me the United States 
has not done as good a job as it could have towards encouraging 
brain drain. Ultimately, it is the people who make the weapons, 
and ultimately it is the expertise that we at UNSCOM left 
behind. These are technocrats--smart, energetic people. In many 
cases, they are trapped in the system. They face daily dilemmas 
that we do not. Do you risk leaving? Do you risk not serving 
the regime? Risk your life? Risk your family's life? These are 
daily decisions these people confront, and they have a lot of 
sympathy from me, despite the fact that they may participate in 
these programs.
    I think we could do a lot both to help them and to help 
ourselves by encouraging them to vote with their feet. As it 
becomes more and more clear that the United States is serious 
about changing the regime in Baghdad, Baghdad is going to get 
pretty ugly. Saddam's a proactive guy. He may be paranoid. He 
may have good reason for being paranoid. People are going to be 
starting to look next to him and saying, who is likely to be 
disloyal? People are going to die. I would hope some of these 
more productive Iraqis will decide sooner to leave rather than 
later, and perhaps we can make that message clear.
    This plays into a final point. If we do confront Iraq 
militarily we face another issue where Saddam may actually 
order the use of these weapons. Deterring him this time may be 
difficult because he may realize that we are not going to stop 
until he is gone, period.
    That takes away some of the leverage on deterrence, so in 
that case, one of the messages you may wish to transmit is to 
all the people who have to execute the orders and say, look, 
there will be a new regime. Judgments will be made at that 
point in time, and your actions now will be evaluated at that 
point in time. Iraqis in the chain of command must think about 
it, because we will be watching to see who actually does this 
and who does not do it. Maybe the people can be deterred, if 
not their leader.
    Those are my comments. Thank you very much.
    [The prepared statement of Mr. Duelfer follows:]

                Prepared Statement by Charles A. Duelfer

    Thank you for the opportunity to appear before your subcommittee. I 
would like to make my presentation in two parts. The first part will 
address the motivations, concepts, and organizations supporting the 
Iraqi WMD programs. The second will discuss the ensuing programs and 
their probable status today.
    UNSCOM had long pressed Iraq to provide information and documents 
describing the requirements and operational concepts for the 
biological, chemical, ballistic missile, and nuclear programs. Iraq 
refused until shortly after Saddam Hussein's son-in-law, Hussein Kamal, 
defected to Jordan in August 1995. Hussein Kamal was the most senior 
regime official with control over these weapons programs. Baghdad was 
concerned about what Kamal would reveal and sought to limit the damage 
by a burst of controlled cooperation and admissions.
    On September 18, 1995, I had a long, late night meeting with 
several senior Iraqi ministers and other officials. The meeting was 
arranged to discuss the Iraqi concepts and requirements for their WMD 
development and production programs. Previously, Baghdad had refused to 
engage in such a discussion. I remember the meeting quite well, not 
simply because there was an unusual amount of candor, but because I 
suddenly realized how unlikely it was that the government would ever 
comply fully with the UN demand to completely give up all WMD 
capabilities forever. Consequently, the UNSCOM inspectors had an 
ultimately hopeless task under the conditions they were permitted to 
operate.
    Iraq revealed that evening how weapons of mass destruction were 
viewed from the position of the presidency. (They even provided 
selected presidential documents.) Partial descriptions of the origin of 
WMD efforts were discussed. They also discussed how these programs had 
been used and their importance to the regime. In essence, the 
possession of WMD had saved the regime on two occasions. The first was 
in the war with Iran in the 1980s when Iranian human wave infantry 
attacks were repelled with chemical munitions (UNSCOM learned that 
101,000 were reported ``consumed'' during this period).
    The second instance where WMD preserved the regime was more 
surprising. I had asked about the decision by the Iraqi leadership not 
to employ WMD in the 1991 Gulf War. In a carefully worded response, the 
impression was conveyed that the president thought if Iraq used 
chemical or biological weapons against the coalition, retaliation would 
end his regime and probably him personally. He was successfully 
deterred. However, my interlocutors went on to describe how they had 
loaded biological and chemical agent into various missile warheads and 
bombs before hostilities began in 1991. Moreover they dispersed these 
weapons and pre-delegated the authority to use them if the United 
States moved on Baghdad. The Iraqis stated that these actions 
apparently deterred the United States from going to Baghdad.
    Whether the Iraqi leadership believes this was the only reason the 
United States did not go to Baghdad in 1991 is unknown. However, 
clearly they are convinced that the possession of WMD contributed to 
keeping the Americans away and thus was vital to their survival.
    The Iraqi WMD programs, which were begun in the mid-1970s, and 
consumed large material and human resources throughout the 1980s, were 
well worth the investment from the perspective of the leadership. It 
was difficult then and more difficult now, to imagine circumstances 
under which this regime would end these programs. Deputy Prime Minister 
Tariq Aziz said on more than one occasion, ``You are not McArthur. You 
did not occupy Iraq. Therefore, there are limits to what you can do.'' 
He was absolutely correct. Inspectors would be inherently limited in 
what they could do and accomplish. Nevertheless, we did eventually 
obtain a pretty good picture of the extent of Iraq's programs. From 
that, and from evidence that continues to be available even now, it is 
possible to make a reasonable judgment about Iraq's current 
capabilities and intentions.
    Organizations. The key organizations of the Iraqi programs included 
not just the Ministry of Defense, military services and Military 
Industrial Corporation, but also the intelligence services. The role of 
the latter was particularly relevant to the biological weapons program 
and contributed to our lack of understanding in that area. The military 
services had clear roles in the chemical area. Air forces and army 
forces stocked and used a variety of munitions for battlefield 
purposes. The long-range missiles were in a separate unit and had 
special warheads that could be loaded with chemical or biological 
agents. The Military Industrial Corporation (or organization) was and 
is now the ministry that coordinates all military research, 
development, and production. A special department of the Iraqi 
Intelligence Service or Mukhabarat plays an important supporting role, 
especially in arranging overseas procurement of weapons-related items. 
They coordinate purchasing missions and establish front companies or 
work through companies who conduct largely legitimate business.
    The Special Security Organization (Amn al Khass) had a special role 
in the biological weapons program that was carefully concealed. UNSCOM 
only obtained fragmentary information on this but it was clear that 
much of the original work on agent development was at the instigation 
of this security organization. The purposes of such research were 
therefore uncertain, but not related to military requirements. The 
Special Security Organization and the elite military units of the 
Special Republican Guard are responsible for protecting and concealing 
WMD elements.
    The place where all these programs came together was in the Office 
of the President (or Diwan). Only top presidential advisors had the 
full picture and gave direction and committed the resources to these 
programs. Key among them is Presidential Secretary Abid Hamoud who 
plays a role like the U.S. national security advisor, but more so. (He 
has more command authority.)
    Incidentally, the reason UNSCOM pressed so hard to gain access to 
presidential sites, including palace areas, was because this is where 
we believed we could find the program and planning data that would 
allow us to verify the full extent of the Iraqi programs. The top-level 
control of these programs will not have changed today.
    Long Range Ballistic Missile Status. The bulk of Iraq's long range 
surface to surface missiles derived from imported SCUDs from the former 
Soviet Union. They imported 819 missiles and 11 mobile launchers. Many 
were expended: against Iran, for testing, and in the 1991 war. Iraq 
unilaterally destroyed others in an elaborate ruse to preserve a 
limited force in 1991. UNSCOM pursued a long and tortuous process to 
account for these missiles, which was made more difficult by the 
discovery in 1995 that Iraq had a program to produce such missiles 
indigenously. This program was at least somewhat successful. At the end 
of our work in Iraq there remained uncertainty over the disposition of 
a relatively small number of SCUD missiles. In my view it is likely 
Iraq retains a small long range missile force (perhaps 12-14 missiles) 
that would serve the purpose of a strategic reserve.
    However, Iraq also retained a missile development and production 
infrastructure. This is permitted under UN resolutions for missiles up 
to 150 kilometers. Iraq has an active development program for a liquid 
fueled missile dubbed the al Samoud, which utilizes engine technology 
from the anti-aircraft missile SA-2 (Iraq had over 1,400 of these 
missiles) and some technology derived from its SCUD missiles. This 
program continues today and there are reports that Iraq may be seeking 
the ability to extend its range and develop longer-range missiles.
    Key areas Iraq needed to work on included warhead fusing (their 
chemical/biological missile warheads in 1991 had impact fuses which 
would greatly limit their effectiveness), guidance, and engine 
production. Another area where Iraq is undoubtedly working is on 
staging. The Iraqi surface to surface missiles in 1991 were single 
staged. However, they were doing research on ways to add stages and 
increase range. It should be noted that Iraq continued these research 
and development efforts even while UNSCOM was inspecting during the 
early 1990s.
    Chemical Weapons Status. While UNSCOM attempted to obtain 
documentation covering missions and requirements from the Ministry of 
Defense we never succeeded--despite some very intrusive inspections.\1\ 
Nevertheless, we gained a general picture of the chemical weapons 
programs up until 1988, or the end of the Iran-Iraq war. The agents and 
munitions developed and used were nerve and mustard agent. They had 
clear battlefield applications and we were able to account for much of 
the weapons and production capacity. Remaining issues included such 
matters as discrepancies about munitions consumed. (A key document 
found by UNSCOM in the Iraqi Air Force headquarters in July 1998 was 
seized back by Iraq. Inspectors had copied the data, which contradicted 
earlier Iraqi declarations accounting for nerve and mustard munitions.) 
There also was production equipment for which UNSCOM had evidence that 
it existed in Iraq, but never located. There also was no way of 
verifying the disposition of much of the stocks of precursor chemicals 
Iraq had acquired.
---------------------------------------------------------------------------
    \1\ There was one exception--a Ministry of Defense document 
directing acquisition of chemical weapons agent in 1988.
---------------------------------------------------------------------------
    It was certainly the case that the work Iraq pursued in chemical 
weapons after 1988 was the most tightly protected by Iraq. The one 
Ministry of Defense document UNSCOM did receive provided guidance to 
continue to develop types of chemical weapons, attempting to 
manufacture the most dangerous types in large quantities. It was in 
this period that development and production of the advanced nerve agent 
VX was conducted. There remains considerable uncertainty about the 
extent of this program and its disposition. There was a pattern to 
Iraqi revelations--they gave up the oldest and least advanced projects 
and materials most readily.
    UNSCOM accounted for and destroyed huge amounts of chemical agent, 
munitions, production equipment, and precursors. Yet, there certainly 
remained unaccounted materials for the production of both precursors 
and final agent. Iraq can make munitions indigenously and can probably 
make needed chemical production equipment indigenously. The expertise 
for such work remains.
    Areas where Iraq could be expected to be doing development would be 
in producing stabilized VX and improving their munitions and dispersal 
systems. In particular, the aerial bomb designs Iraq had in the early 
1990s were not efficient for dispersing nerve agent. Fusing was a 
problem. It was apparent that Iraq was beginning to look into cluster 
munitions. Such munitions could be much more effective battlefield 
weapons. Aerial spray devices, possibly attached to remotely piloted 
vehicles, were under development and had application for both chemical 
and biological agents.
    Biological Weapons Status. The biological weapons program was the 
least well verified of all Iraq's WMD programs. Part of the reason is 
because, as noted earlier, it emerged from the security organizations. 
The original purposes probably were not military in nature. This 
program was also not admitted until 1995, or 4 years after UNSCOM began 
work in Iraq. We know that the biological weapons program largely 
shared the same munitions as chemical weapons. However, the production 
levels and disposition of both agent and production equipment has 
significant uncertainty.
    The three biological agents Iraq states it produced for weapons 
were anthrax, botulinum toxin, and aflatoxin. There were many other 
biological agents on which Iraq conducted research and development. 
These included clostridium perfringens (causes gangrene), ricin, wheat 
cover smut, and some early work on viruses. Iraq had begun some early 
genetic engineering work as well. Iraq conducted experiments mixing 
lethal and non-lethal agents such as CS, commonly used as a riot 
control agent.
    Iraq never made clear the purposes of many of these programs and 
experiments, extensive though they were. It seemed probable that 
military use was not the only purpose. In fact, the military seemed to 
have almost no interest or relationship to the program. It is difficult 
to understand why Iraq would produce and put alatoxin into aerial 
bombs. It has the effect of causing cancer over a period of several 
years. Experiments Iraq conducted in mixing aflatoxin with riot control 
agent appear particularly insidious as they would mask the exposure of 
individuals to this cancer causing agent.
    The experiments with wheat smut are evidently aimed at developing 
economic weapons.
    It was clear that Iraq understood that depending on the method of 
dispersal, the origin of the agent could be concealed. In other words, 
they understood the potential for conducting an attack that would be 
near impossible to connect to Baghdad as the responsible actor.
    The sites where Iraqi biological weapons work was known to have 
occurred were accounted for by UNSCOM. The largest, al Hakam, was 
destroyed under UNSCOM supervision in 1996. Another, the Daura Foot and 
Mouth disease facility, is being used for civilian purposes according 
to public accounts. There were elements of production equipment that 
UNSCOM understood were shipped into Iraq, but which were never located.
    Nuclear Weapons Status. The nuclear weapons program is the most 
critical and most difficult for Iraq to achieve. While successful in 
all other WMD areas, Iraq did not quite achieve a nuclear weapon 
capability before invading Kuwait. Iraq had a huge sustained investment 
in nuclear weapons development throughout the 1980s. The International 
Atomic Energy Agency (IAEA) accounted for most of the program and key 
facilities were destroyed. However, the intellectual capital remains, 
as does the will of the leadership to achieve a nuclear capability. 
Even during the time UNSCOM and IAEA were still in Iraq, there was a 
pattern of the former staff of the nuclear program being reassembled in 
common locations according to their expertise, e.g. specialists from 
former centrifuge enrichment program can be found clustered at one 
facility. Of course Iraq claimed they were engaged in activities 
allowed by the UN resolutions, but coincidences like these occurred too 
often.
    Key facilities where personnel congregated included Al Majd Center, 
the Ibn Sina Center, Al Raya Center, Sa'ad Center (right across from 
the Rasheed Hotel familiar to all visitors), and the Al Tahaddi Center. 
These centers have legitimate rationales for their on-going work, but 
the presence of teams of alumni from the nuclear weapons program is a 
key tip-off.
    A recent defector who worked as a design engineer (evidently in the 
Al Majd Center) stated that an explicit order to reconstitute the 
nuclear teams was promulgated in August 1998, at the time Iraq ceased 
cooperation with UNSCOM and IAEA.\2\
---------------------------------------------------------------------------
    \2\ London Sunday Times of December 24, 2000, ``Saddam Builds New 
Atom Bomb,'' by Marie Colvin (who interviewed engineer Salman Yassin 
Zweir in Amman Jordan.) Another defector associated with the nuclear 
program went to Spain in 2000 and also reported ongoing work. See Il 
Mundo, Sunday, April 2, 2000. A more sensational report from a defector 
carried in the London Sunday Telegraph of January 28, 2001 that Iraq 
has two nuclear weapons is extremely dubious. Major elements of his 
descriptions (some on television) were demonstrably wrong--such as an 
underground facility at Lake Rezzaza. Moreover, when Saddam does have a 
bomb, his behavior will change.
---------------------------------------------------------------------------
    The key hurdle for Iraq to surmount to obtain a nuclear weapon is 
the acquisition of fissile material. Iraq had a viable weapon design 
and the capacity to produce all the elements of a weapon. Predictions 
on when Iraq will achieve a weapon depend on whether Iraq can obtain 
fissile material by smuggling or they have to produce it themselves, 
which will take much longer. Predictions are particularly uncertain. 
The German intelligence authorities made an oft-quoted estimate last 
year in which it was stated that Iraq could, in the worst case, have a 
nuclear weapon in 3-6 years. German intelligence noted the growth in 
Iraqi procurement efforts in particular for weapons-related items.\3\ 
However, how this projection was made is not public and it may include 
significant uncertainty.
---------------------------------------------------------------------------
    \3\ As reported in Die Welt internet version of February 23, 2001, 
``The Long Arm of Saddam'' by Roland Nelles.
---------------------------------------------------------------------------
    While precise estimates of the Iraqi nuclear program are 
impossible, what is certain is that Baghdad has the desire, the talent, 
and the resources to build a nuclear weapon given the time to do so.
    Where are they headed? Typically, the regime in Baghdad will devote 
full resources to its weapons programs. All evidence suggests this has 
not changed even under sanctions and while the Iraqi civil society has 
been decaying. The regime has ruthlessly used a combination of reward 
and punishment to achieve all of its objectives, whether protecting 
itself internally or expanding its influence internationally. The use 
of force comes naturally and weapons of mass destruction are a vital 
element of the spectrum of power the regime applies. The regime 
exhibits a fundamental view that if you are not feared, you are 
nothing.
    The regime seeks to dominate the region. It generates fear in its 
neighbors but also has the inherent capacity to reward them due to its 
oil wealth. It has skillfully played these two levers. Its influence in 
the region has steadily and incrementally grown since the debacle of 
1991.
    The Current and Future WMD Threat. Iraq has significant WMD 
capabilities in all areas with the exception of nuclear. It is probable 
that a small force of SCUD derived missiles remain in Iraq. Defectors 
have reported their existence and this is consistent with the remaining 
uncertainties of UNSCOM's work.\4\ Moreover, the ongoing Al Samoud 
liquid propellant missile is proceeding quite actively. Iraq has also 
been active in developing solid propellant engines. Iraq had a project 
called Badr 2000 which aimed to import non-SCUD missile technology. 
UNSCOM eliminated much of this program, but it embodied an objective 
Iraq retained in its missile programs--a multi-stage surface to surface 
missile. It is a reasonable assumption that such development work 
continues. Even during the time UNSCOM was in Iraq, a facility for the 
production of ammonium perchlorate, a key ingredient in solid missile 
propellent, had been established (to eliminate the need to smuggle such 
material).
---------------------------------------------------------------------------
    \4\ Another defector interviewed in Jordan and reported in London 
Sunday Times of February 20, 2000 in an article by Marie Colvin and Uzi 
Mahnaimi. The defector reported training exercises with missiles 
including the loading of warheads with nerve agent.
---------------------------------------------------------------------------
    Key things to look for in the Iraqi missile program will be testing 
of separating warheads, fusing for detonation above ground, and perhaps 
employment of supersonic parachutes to retard warheads. Evidence of 
Iraqi interest in these areas before UNSCOM left and such testing would 
indicate important advances in chemical and biological missile 
warheads.
    The chemical weapons program must be assumed to remain albeit in a 
diminished state from the huge industrial production of the 1980s. 
Dual-use facilities, even at known locations such as the production 
plants at Falluja, have the ability to produce chemical agents 
clandestinely. Chemical weapons have proven utility to Iraq on the 
battlefield against large troop concentrations. Iraq will retain the 
capacity to produce significant amounts of agent and fill munitions in 
a period of strategic warning. Storable, persistent VX agent may well 
have been produced since UNSCOM left in 1998. Chemical weapons 
munitions for the battlefield can be produced in existing Iraqi 
munition factories.
    The biological program is the most problematic for a number of 
reasons. First, it is the least visible. Facilities can be hidden or 
made mobile. UNSCOM had received reports of mobile biological weapons 
facilities. Unlike nuclear programs, biological weapons programs have a 
small signature. The best window into the Iraqi program will be from 
defectors. Some have been providing such information.\5\ Another key 
concern about the biological programs is that Iraq can accomplish 
everything indigenously. They can produce all the production equipment 
(fermenters, dryers, centrifuges, etc.). Iraq is also quite able to 
produce dispersal weapons of various sorts. Finally, they have access 
to seed stocks for a whole range agents.
---------------------------------------------------------------------------
    \5\ One of the better known was Abbas al Janabi who left in 
February 1998. He was a close aid to Saddam's elder son, Udey. He 
reported that the effectiveness of UNSCOM was limited and, in 
particular, Iraq retained a biological weapons capability. See Paris 
Match February 11, 1999 pp. 3-5.
---------------------------------------------------------------------------
    The types of research Iraq is known to have conducted points to 
their interest in biological weapons not just as a battlefield weapon, 
but as a strategic weapon, an economic weapon, a terror weapon, and 
possibly a genocide weapon. It remains to be learned precisely what 
agents were used in Kurdistan and whether they were strictly chemical 
agents.
    Biological weapons are the most difficult present threat posed by 
Iraq. They certainly have the capacity to deploy it clandestinely or 
through surrogates should the regime so decide. Moreover, it is 
possible that such things as wheat smut could be spread without any way 
of tracing the source. It is not impossible to imagine an economic 
disaster like the British foot and mouth disease outbreak that could be 
secretly directed from Baghdad and we would never be able to prove the 
source.
    Biological weapons remain a high priority for the regime. Defector 
information indicates recruitment efforts among top Baghdad University 
biology students. It is also interesting to note that people associated 
with the biological weapons programs have been promoted. One key 
individual is now deputy director of the Military Industrial 
Corporation--the state run defense research, development, and 
production center.
    Saddam Hussein has stated his policy on weapons himself. In a 
televised meeting with top officials of the Military Industrial 
Corporation on June 12, 2000, he said,

        ``If the world tells us to abandon all our weapons and keep 
        only swords, we will do that. We will destroy all the weapons, 
        if they destroy their weapons. But if they keep a rifle and 
        then tell me that I have the right to possess only a sword, 
        then we would say no. As long as the rifle has become a means 
        to defend our country against anybody who may have designs 
        against it, then we will try our best to acquire the rifle.'' 
        \6\
---------------------------------------------------------------------------
    \6\ From a FBIS report 122115Z of June 12, 2000.

    Finally, and most recently, the official newspaper of the Iraqi 
Bath party, Ath-Thawra, wrote that ``Acquiescing to Israel's, but not 
Arab, possession of such weapons (WMD) is a case of double standards. 
But no matter how much those who pursue double standards try to 
obstruct the Arabs, they will not stop their efforts to achieve this 
goal, be they overt or covert, in future. Acquiring weapons of mass 
destruction is consistent with ``the right to self-defense and the 
requirements of national security, irrespective of the nature of a 
ruling regime.'' \7\
---------------------------------------------------------------------------
    \7\ From an Agence France Press wire report from Baghdad of January 
20, 2002, describing a report in Ath-Thawra of the same date.
---------------------------------------------------------------------------
    Of course, the difference in the regime is everything. The present 
regime in Baghdad will not give up WMD even if inspectors go in again. 
The present regime will also remain quite willing to use them.

    Senator Landrieu. Thank you very much. Those were excellent 
summaries of your testimony, and I think you have really given 
us a tremendous amount of food for thought, and there will be 
questions, of course. We will proceed with 6 minute rounds, our 
usual procedure.
    Let me begin, Dr. Cordesman, with trying to revisit an 
issue for just a moment. I agree that we have probably spent 
too much time focusing on missiles as a method of delivery. 
Although I have supported some of the development of our 
programs here in the United States, I do think that we need to 
focus on other delivery systems that you mentioned.
    Could you go into some more detail about what kinds of 
systems you think would be more likely to be used, what you may 
be looking for, and what the effective means of delivering 
these other types of weapons that we should be more focused on 
are?
    Dr. Cordesman. Senator, I think you have two basic 
categories of delivery. One is if you are using an alternative 
military weapons system, another is if you are using a covert 
delivery system.
    I would agree with Charles that a nuclear device, if they 
have one, in the near term is likely to be large, bulky, and 
difficult to deliver, and almost a last resort device. It is 
also not clear that they can test. It is not clear that they 
have enough fissile material for such a test.
    If, however, they have moved ahead with dry storable 
biological weapons and crop sprayers, they could use MIG-21s as 
drones. You can take an aircraft and modify it to spray 
biological agents. The question would be how many would 
penetrate, but some might well penetrate. You could find ways 
to use helicopters. Iraq used helicopters to deliver chemical 
weapons during the Iran-Iraq war. Helicopters operating quickly 
across borders against an area like Kuwait, for example, and 
disseminating biological weapons at night, would be a scenario 
that would particularly concern me.
    Covert weapons are a different category. The Gulf, frankly, 
is a very porous place. Anybody who has actually been to the 
Gulf and gone to Gulf ports is aware that security is often 
extraordinarily nominal. For example, the port of Dubai has 
virtually no day-to-day inspection or surveillance. There is a 
lot of small traffic across the Gulf. Smuggling a weapon into a 
southern Gulf country, a place where the U.S. might have to 
disembark forces, would be another scenario. Even for a country 
like Israel it would be very difficult to close its borders 
against such covert attacks.
    If you were to take the worst case scenario, it would be 
that Iraq does indeed have smallpox, and they would disseminate 
that in a place like the Frankfurt Airport. You really do not 
have to be subtle in making such attacks. You do not have to 
have an attack spread over many locations. The infection 
corridors disseminating smallpox from an attack on one airport 
over the course of a single day, particularly one with a lot of 
flights to the United States, as well as to Europe, would be 
something where----
    Senator Landrieu. It would be a very effective delivery 
system.
    Dr. Cordesman. More than that, it would be almost 
uncontrollable and make it almost impossible to predict how the 
infection patterns would develop. Again, these are worst-case 
scenarios. We had the real world case of Aum Shin Rikyo using 
anthrax spray on innocent civilians and the agent was so 
ineffective they never noticed they were being sprayed.
    But let me make the point that while missiles are not the 
only delivery system, I would not disregard them. As Charles 
pointed out, firing one crude chemical or biological warhead 
into the area of downtown Tel Aviv might be a way of catalyzing 
a region-wide war and Iraq might do this if it felt that this 
was its last way of levering this conflict and the regime was 
threatened.
    Senator Landrieu. Mr. Duelfer, do you have anything to add?
    Mr. Duelfer. I think that covers the waterfront. I could go 
into more detail. Iraq did develop helicopter-mounted devices 
for the dispersal of biological weapons. There was a fellow 
named Zubeidi, and a device which we called the Zubeidi device 
in his honor, which was specifically designed for that purpose. 
So they clearly have a notion of using aerial dispersal 
methods.
    They had also been doing some work with a Czech trainer 
aircraft called the L-29. When we were in Iraq we explored that 
issue with them and they, of course, said this was simply an 
RPV, a remotely piloted vehicle, but it would make a very good 
platform for dispersal of biological agent.
    Senator Landrieu. Let me ask you both this. Given your keen 
understanding, since you both have a lot of expertise in 
dealing with this particular regime and the motives of this 
regime, could you both give your views on the likelihood of 
Iraq perpetrating an attack against the United States with 
chemical or biological weapons, either itself or through 
terrorist properties?
    A lot of your testimony has been about Iraq's motivations 
towards its neighbors, protecting itself against invasion. Post 
September 11, knowing now what we know about their operation, 
which has really been without inspection for 10 years--but 
where we have a sense of their capabilities, etcetera, could 
you just for the record give your views of that likelihood, 
particularly through terrorist proxies? Is that likely or 
unlikely, and how would you back up your conclusions and 
suggestions?
    Dr. Cordesman. Let me begin. I think, frankly, Senator, 
that nobody can really answer that question by providing clear 
probabilities. Over the years, Iraq has done a far better job 
of terrorizing its own citizens, both domestically and abroad, 
than exploiting terrorist groups.
    Terrorist groups are very divided. For all the talk of 
Islamic extremism, many of them are secular, many of them 
change alignments very quickly, and many of them quite frankly 
are for sale. The ability to use one such group with limited 
risk of attribution is something that any country in this 
region is at least potentially capable of.
    My guess would be, however, that Iraq would not do that. It 
would be too frightened of the United States eventually finding 
out what happened, and of it triggering the level of U.S. 
military action to remove the regime that they know they could 
not resist.
    But the other answer to your question is, what happens if 
Saddam Hussein feels he is on the edge of defeat, or that his 
regime is likely to be destroyed? I think he basically sees 
himself as the future of the Iraqi nation, and I think he would 
be more than willing to take virtually any kind of revenge that 
he could take, and to use a terrorist group to deliver any 
weapon he could bring to bear against the United States.
    Senator Landrieu. Mr. Duelfer?
    Mr. Duelfer. I would just add a couple of observations. I 
spent a lot of hours talking with senior Iraqis, and they 
looked at me as the one senior American they could actually 
talk to over the years. It was interesting, because they really 
wanted to be reconnected to the West. They wanted to be 
reconnected to Washington. It was not that they were trying to 
defeat the United States, and I do not think that that is 
Saddam's objective. Saddam's objective is to promote himself 
and to promote himself as the leader of Iraq, so it is not akin 
to Osama bin Laden, where there is this ideological objective 
of destroying the capitalist West. That is not the case at all.
    However, as Tony points out, if Saddam feels that we are 
threatening his existence, he may decide to take as many people 
as possible down with him, but I do not think that he would 
have cause to support a terrorist objective for the purpose of 
trying to destabilize the United States, for example.
    I would not put it past him to support the terrorist 
organizations. I would be astonished if there were not 
connections between the Iraqi intelligence services and al 
Qaeda, and I think the more some of our government colleagues 
poke through the caves in Afghanistan I would not be surprised 
at all if we see that there were Iraqis in some ways present, 
mainly for the purposes of sharing perhaps skills and funding, 
but not for the purposes of attacking the United States.
    They would, however, I think share an objective with Osama 
bin Laden in terms of going after the Saudis, and in essence I 
had this conversation with the Iraqis, because they see 
themselves as the rightful predominant power in the region. 
They think the Saudis do not deserve to be the leader in the 
region, particularly the leader in OPEC. They see themselves as 
having that position, and if they were successful in knocking a 
few blocks from under the Saudi regime, the United States--for 
reasons of economics and oil--would be forced to deal with 
Baghdad, and that was a lever they were going to pursue.
    Senator Landrieu. My time has expired.
    Senator Bingaman.
    Senator Bingaman. Thank you both very much. Thank you, 
Madam Chairwoman, for holding the hearing. There is a growing 
drumbeat here in Washington in particular for military action 
against Iraq, and I think it is hard to watch a talk show or 
read a newspaper without reading about it. It is coming from 
some within the administration and from some in Congress. It is 
coming from various people in the media.
    From what I am picking up from the testimony of both of 
you, clearly there seems to be agreement that Iraq is 
continuing to pursue development of weapons of mass 
destruction, continuing to pursue capabilities to deliver those 
weapons as they determine, or as Saddam determines is 
appropriate, and that they are not going to give those up 
without a conflict. I think, Mr. Duelfer, you said that, and I 
have no reason to doubt that.
    I guess my question is, do the facts you have given us so 
far lead you then to a conclusion about whether it is in our 
national interest to proceed with some kind of military action 
against Iraq, or does it lead you to the opposite conclusion. 
Does it lead you to a conclusion that we should pursue some 
other set of options?
    Dr. Cordesman. I do not think you can get a simple answer 
to that question. There are some other options that might work, 
like a true covert overthrow option, and I do not mean by this 
the support of any of the three opposition groups that exist 
today. I mean, actually trying a major covert operation within 
Iraq. Such an effort would not trigger an immediate Iraqi 
reaction, and it could be a duel that lasted for years, if not 
a decade.
    There are options which I would regard as being very 
dangerous for other reasons. These include relying on a weak, 
if not impotent, opposition movement like the INC, praying that 
you got a repetition of Afghanistan, starting something we 
cannot not finish, and then creating a ``Bay of Kurdistan'' and 
embarrassing the United States throughout this region by a 
conspicuous failure. The only thing worse, quite frankly, than 
Saddam is for the U.S. to try to overthrow him and still have 
Saddam.
    If you are going to draw the conclusion from his weapons of 
mass destruction that we must strike, the follow-on conclusion 
must be that if we are going to do something militarily, it has 
to be quick, it has to be decisive, it has to be thorough, and 
it has to have an American presence on the ground. It has to be 
followed up by a major effort to rebuild Iraq, to create a 
state that the Iraqi people deserve. The Iraqi people, frankly, 
are often a remarkably decent group of people.
    If we meet these conditions, we are willing to use several 
air wings and the equivalent of a heavy corps so this can be 
done in a matter of weeks, and if we can get the support of 
nations like Turkey, Kuwait, and hopefully Saudi Arabia, then 
the threat of proliferation here is so dangerous that that 
would be an option which I would say would be justified.
    But if it is the U.S. supporting the INC in fumbling its 
way into defeat, or if it is simply another set of air strikes, 
if Saddam survives, if Iraq goes on and proliferates, and we 
then convince everyone in the region that the U.S. has tried 
and failed, that would be a disaster.
    Senator Bingaman. Mr. Duelfer, did you wish to give an 
opinion?
    Mr. Duelfer. I would say a couple of things. One is there 
are two alternative futures. One is an Iraq under the current 
regime, which continues to develop its WMD capabilities, 
ultimately resulting in a nuclear weapon. They are going to 
have 4 or 5 million barrels of oil production a day in the not-
too-distant future, and a willingness to use this power. That 
is one future.
    The alternative future is an Iraq under a government that 
behaves according to international norms, with whom we can have 
relations, with a vibrant, developing society, with, again, the 
production of oil, agriculture, and a population which is 
secular, westward-leaning, who want nothing more than to be 
reattached to the West. They would love to have the Internet. 
They would love to have fax machines. They would love to have 
satellite TV. The difference between those two futures is huge, 
and a positive Iraq can change everything in the region. To me, 
that is worth taking some risk.
    I agree with Tony that it is going to require a strong 
American presence, because one of the artifacts of American 
policy in the past 10 years is that people do not believe us. 
Sending a few cruise missiles does not mean anything. The 
Iraqis have grown to like cruise missiles. I had conversations 
with them on this topic. They said, ``well, why do you do this, 
you target buildings.'' I said, ``well, we have these pictures, 
so we target the buildings.'' Buildings to them are like scotch 
tape. They do not care.
    So they are used to America not being serious, but if 
America demonstrates that it is serious, it will change 
people's minds in Iraq. They will question, are they going to 
fight to defend this regime, or are they going to say, ``here 
comes the future.'' Similarly, our European friends and allies 
and the countries in the region will begin to think about what 
position they want to be in with the next regime, which will be 
quite positive.
    It is a tough decision.
    Senator Bingaman. I guess I am still unclear. Is it your 
view, Dr. Cordesman, that we could accomplish the objective 
that both of you are referring to here, changing the regime in 
Iraq, in a quick, decisive way?
    Dr. Cordesman. It depends upon what you mean by quick and 
decisive. I think it would be disastrous to go into this region 
today, not having established the credibility of what we intend 
to do with our regional allies, not having proven that this 
time we are truly serious and have a high chance of success, 
and not having shown we have a clear plan for what we are going 
to do in Iraq after we win.
    Now, we cannot take these steps tomorrow. It probably could 
be done in a year, perhaps less. It would require a very clear 
U.S. commitment, however, to act decisively and to use a great 
deal of our political influence. Our efforts would also be 
complicated by the second intifada. But, I think within a year 
it is at least possible, although I would prefer a year to 18 
months if we had the time.
    I do think--I want to be very clear about this--that the 
people who talk about Iraq being another Afghanistan are 
kidding themselves. Those who feel the INA and INC, with their 
almost massive penetration by Iraqi intelligence and their 
acute weakness, or the Iranian-backed SARI, with its ability to 
conduct a few minor raids but no troops, plus a few air 
strikes, can give us a quick overthrow capability believe in a 
dangerous myth. Acting on it would do us far more harm than 
good.
    Mr. Duelfer. Two quick comments. One, it requires U.S. 
forces on the ground. We have to convince the regular Iraqi 
Army that we are serious about regime change. There are 
institutions in Iraq that we want in the next government 
anyway, such as the regular army and the regular civil service.
    The second point is, on rebuilding Iraq, that it is vastly 
different than Afghanistan. The Iraqis will rebuild Iraq 
lickety-split. In 1992 they had their communications and a lot 
of the essential services back. These guys will take care of 
themselves, once they have the opportunity.
    Senator Bingaman. Thank you.
    Senator Landrieu. Senator Hutchinson.
    Senator Hutchinson. Madam Chairwoman, thank you for holding 
the hearing today, and thank you for what I think is very 
chilling testimony. What you have told us today justifies the 
President's characterization of Iraq as part of an axis of 
evil, at least in my estimation. My only question about the 
President's use of the term ``axis of evil'' is why there were 
not some other nations included in that axis as well that are 
either terrorist states or exporting terrorism and weapons of 
mass destruction.
    I thank you for your very candid and forthright testimony. 
It is needed as a part of a wake-up call for the price that is 
going to be required and the commitment that is going to be 
necessary to do what you have, under various scenarios, 
suggested.
    I just came back from Afghanistan, Pakistan, and 
Uzbekistan, and we stopped in Brussels and met with our NATO 
commander. One of the things that struck me in particular in 
the visit with NATO was the skittishness of our European allies 
that have been forthrightly foursquare behind our effort in 
Afghanistan but are very, if not outright, opposed to--very 
nervous about--any expansion of the war on terrorism beyond 
Afghanistan. Part of their point, or part of the contention 
they make, is that there is no evidence that Iraq exports. That 
Iraq, while it may be developing weapons of mass destruction, 
is not sharing or proliferating those weapons with others.
    In your testimony, if I heard correctly, Mr. Duelfer, you 
suggested that you would not be surprised if we found evidence 
of Iraqi connections with al Qaeda in those caves in 
Afghanistan, and that at least those connections, those 
communications, I think you made a distinction between their 
goal being the destruction of, or the undermining, of Saudi 
Arabia, but not necessarily an attack upon the United States.
    It seems to me that if you are going to communicate with 
and share intelligence and information with al Qaeda, whatever 
your motive is, the end result is going to be that you are 
assisting an enemy of the United States. Maybe if you could 
just respond a little bit to the issue of whether Iraq is in 
fact proliferating and sharing its WMD technology with others.
    Mr. Duelfer. When we were in Iraq as UNSCOM we did not see 
conclusive evidence that Iraq was sharing its WMD expertise 
with other nations. They, of course, were obtaining WMD 
expertise from other nations.
    There were some indications that Iraqis who had WMD 
expertise were traveling abroad. I am sure the Iraqis would 
simply say, they were probably just taking vacations in these 
countries. This is very suspicious, but in terms of absolute 
facts, I cannot tell you that Iraq was sharing its capabilities 
with other countries, or non-state actors. Having said that, 
there certainly were lots of what we would call terrorist 
groups hanging out in Iraq.
    We inspected a couple of bases there to see if they were 
concealing weapons. There were lots of places and activities we 
stumbled across not related to our mandate under the UN, but 
which would indicate there certainly were connections between 
the Iraqi intelligence services and some of these terrorist 
organizations, but I cannot tell you that there was a WMD 
connection.
    We had enormous access in Iraq. We inspected Mukhabarat 
headquarters, the elite Special Security Organization, all 
kinds of sensitive places, because we knew that is where the 
WMD materials were controlled and where decisions were made. We 
would stumble across all kinds of things, but it was not 
related to our mandate. I cannot tell you for sure if there was 
any connection between terrorists and WMD in Iraq.
    Dr. Cordesman. Senator, if I could pick up on a point 
Charles raised, these are the ``crown jewels'' to Iraq. Lethal 
biological agents, any kind of radiological agent, or a nuclear 
weapon that was a fissile weapon would be the Iraqi regime's 
most valuable asset. This also would be a scenario where if we 
suddenly saw such weapons in the hands of a terrorist group, we 
would be immediately asking the question, how did something 
that sophisticated come into the hands of such a group?
    Now, al Qaeda is not the ideal group for Iraq to support. 
Its ideology is different. There are many other terrorist cells 
and groups which are more secular, easier to control, and that 
would be more dependent on Iraq for money. I think even limited 
aid, such as the provision of a particularly lethal biological 
strain, would be something Iraq would not do.
    At the same time, al Qaeda would not need all that much 
technical skill to have the ability to conduct an attack in the 
United States using hazardous materials. It would not take much 
outside help to get a crude biological agent. There are a lot 
of ways in which an Iraqi intelligence service might or might 
not help al Qaeda to acquire CBRN weapons.
    At the same time, I know that some of the manuals involved 
that are required to produce these weapons have been 
commercially available for more than 15 years in the open 
literature in English, so it is by no means clear there has 
been any relationship. There either is a clear chain of 
evidence to prove Iraqi involvement or there is not. We cannot 
answer your question. Perhaps the intelligence community can.
    Senator Hutchinson. Is it your sense that if we had 
inspectors go back in, if they allowed inspectors back in, that 
there would be any freer rein, any greater access to these 
weapons than what you had before? You said it was pretty wide-
open, and I am surprised at that.
    Mr. Duelfer. Even when we were UNSCOM, when we were 
traipsing around all these various palaces, we could not find 
what Iraq desired to conceal. It is difficult for me to imagine 
any circumstances under which Saddam would permit this new 
group to go in that would be more effective.
    We did a study when we were out of Baghdad on what we 
believed would be required for effective monitoring in the 
biological area, which is the toughest one, and it requires a 
lot of access to people and documents in a very short time 
frame all over the country. It is hard for me to imagine Saddam 
making that available, but we will see.
    Dr. Cordesman. The other issue here, Senator, is what we 
call break-out capability. When Iraq first used mustard gas it 
was made in university laboratories. It did not have previous 
military facilities. Poison gas was used in small amounts, but 
it was still used.
    When Iraq converted a pharmaceutical plant to the mass 
production of anthrax agents before the Gulf War, it took less 
than 6 months. So, even if you could dismantle all of the 
facilities in Iraq today, as long as this regime is present and 
has the basic technology and has some core elements of 
proliferation, even a 100 percent or 99 percent inspection 
effort could not really prevent this regime from proliferating.
    Senator Hutchinson. Will there be another round, Madam 
Chairwoman?
    Senator Landrieu. Yes, I think there will be. We have some 
time, and I will get back to you. Thank you, Senator, for those 
good questions.
    Let me follow up with just a couple of things. This was 
somewhat included in your testimony, but could both of you give 
your views on the current sanctions that are in place, and the 
effectiveness of those sanctions in trying to meet our 
objectives? Also, could you explain to us your views about our 
allies, particularly France?
    I could maybe understand Russia's position, but I have a 
hard time understanding the French position regarding some of 
these issues. Perhaps you could shed some light on our allies' 
views of this current situation of the development of these 
weapons. Do they not perceive them as a threat, or not care 
about them, or think maybe there is another way to get the 
situation turned around? Whoever wants to start.
    Dr. Cordesman. Senator, let me start quickly. I will leave 
sanctions largely to Charles. I would note they have been 
extraordinarily effective in leading to a steady deterioration 
of the Iraqi conventional military establishment. There has 
been no major resupply for more than a decade, no Iraqi ability 
to react to the lessons of the Gulf War. Iraq is still a very 
powerful force by Gulf standards, but we have done a great deal 
to weaken it through sanctions.
    In the history of proliferation, the problems have never 
been purely technical. The key barrier to success has always 
been management and systems integration. If you can buy your 
way around your ability to manage and integrate by buying 
foreign technology, it gives you many more advantages than you 
might think. I am sure that the sanctions have helped there, 
but I would leave that to Charles.
    The one thing I would say about sanctions is that we have 
done an appalling job of explaining to the region that it is 
not us who have caused the suffering of the Iraqi people. We 
have been very slow to really show that we care about the Iraqi 
people, and have just waited for Saddam to go every year for a 
decade. This is one of the problems we will face in this 
region. I can think of only one really meaningful U.S. 
Government effort in 12 years to explain what sanctions really 
do, why they are really the fault of Saddam, and how he uses 
them as a political weapon. I would invite any Senator to look 
at what the State Department has issued on this topic as a 
sample of perhaps one of the worst efforts in psychological and 
political warfare ever written.
    In terms of the allies, let me just say first there is only 
one person who can command allied support, and that is the 
President. He has to present a convincing proposal. He has to 
show we are serious, and he has to show the allies that 
afterwards we will actually have an end game to ensure Iraqi 
stability. No amount of briefings and visits by anyone else and 
no amount of speeches by other officials are going to 
accomplish that goal.
    I think that if the President acts decisively and 
convincingly, a lot of allied attitudes may change, but today 
there are problems. The French know perfectly well it does not 
take a lot of tension with the United States to help ensure 
their access to Iraqi oil investments and to Iraqi contracts. 
It does not take a lot of sympathy for the regime to get them 
major economic advantages and leverage. There are people in 
France who I think are almost full-time lobbyists for the Iraqi 
position, and I do not believe it is out of a deep moral 
concern for the Iraqi people.
    There also is the issue of debt and arms sales, so selfish 
motives here are very rational, particularly as long as it does 
not really cost France anything.
    Mr. Duelfer. On sanctions, all of this debate comes down to 
one fundamental control which is left, and that is the control 
of their checkbook. Iraq does not have control of the revenues 
from its legal oil sales, and so I think all of the 
machinations in the UN right now are really designed to address 
this, to some extent the criticism the United States and others 
have been under for the sanctions, but while still retaining 
control of the oil revenues, and that is the real crux of the 
matter.
    The so-called smart sanctions will facilitate a lot of 
people's work on commerce, but their impact on weapons of mass 
destruction is not going to be big. The things which are very 
difficult for Iraq to import legally or illegally are the same. 
Basically the things they would need for a nuclear program, the 
things which they need for a missile and everything else, they 
either can make the stuff indigenously or they can smuggle it 
in.
    I would say that sanctions inhibit the missile program to a 
certain extent. There are a limited number of places that can 
build things like gyroscopes, and it is tougher to smuggle 
those in, but for the most part the real issue is the 
checkbook.
    On our allies, I sat through endless Security Council 
meetings where the French, Russians, and others would be 
criticizing UNSCOM, not Iraq, and perhaps I have a skewed 
perception on this. The French view is that this regime is 
inevitable, you cannot change it. It is also inevitable that 
all regimes end eventually so therefore they should be in a 
position to effect that change when it does happen by having 
good relations.
    I think that encapsulates where they are. They have been, I 
think, supporting the matter of smart sanctions, keeping Iraq 
contained under this regime, and that has cost them. Their 
portion of the oil for food contracts has dropped a lot.
    The Russians, on the other hand, have been steadfast in 
supporting the Iraqis, and they are reaping the contracts that 
Saddam is issuing as a consequence of that. I think it is a bit 
of a mixed bag, but all of them at the end of the day have two 
points of reference that we do not. One, in the back of their 
mind is containing the United States. The Security Council is a 
great tool for containing the United States, not that the 
United States is necessarily a threat, but they want to be able 
to have their say.
    Second, they know that if things go sour, the United States 
will fix it. Our forces are there. I said earlier, they get a 
free ride in a sense. They know if things really go screwy the 
United States, because it is in our interest, will have to deal 
with the problem.
    Senator Landrieu. I want to follow up with one question. I 
happen to agree with you, we really have underfunded and 
perhaps underappreciated the effectiveness of those kinds of 
efforts. But practically, because it is very dangerous--we have 
many stories of defectors who have subsequently lost their 
lives, their families lost, missing, tortured. Practically, are 
there things we could do, in your opinion, to try to pull out 
of the country people who have the knowledge and sophistication 
that we would like to protect ourselves against?
    Mr. Duelfer. Most Iraqis I was able to talk to who had been 
involved in the weapons programs were in Europe, and I will not 
be more specific than that. Few made it to the United States. 
There are a host of reasons for that, having to do with 
proximity, immigration laws, etcetera. It seems to me that 
there ought to be a concerted, coordinated approach to this, 
whether one of these interagency groups is needed or not, 
something which I fortunately have not had to experience in a 
decade.
    It seems to me the United States could have a coordinated 
approach on this, because there are very many bright Iraqis who 
would be delighted to apply their skills elsewhere, but they do 
not know how to do it, and they know that people have been 
burned when they have approached the United States before. I 
know I was asked on occasion, ``should we try to make it to the 
United States?'' In good conscience, for that person's health, 
I could not recommend that course.
    There are a lot of people who would leave if they could, 
and it is a win-win. We take that much expertise away from the 
Iraqi WMD threat, and these people can contribute to our 
knowledge base about what remains behind. Again, as the 
pressure increases on Baghdad, Baghdad is going to get to be a 
very ugly place, and we may be able to work this in a sense to 
our advantage, to cause people to leave earlier rather than 
later.
    Senator Landrieu. Dr. Cordesman, anything to add?
    Dr. Cordesman. No.
    Senator Landrieu. Senator Hutchinson.
    Senator Hutchinson. I know we are short on time. I had just 
one follow-up question. In regard to our military option, Dr. 
Cordesman, I think both of you had said that there is no easy 
answer, but if it were done it had to be decisive, it had to be 
overwhelming, and it had to have a definite outcome, and that 
would involve, both of you said, an American presence on the 
ground. Also, clearly from your testimony there is the 
existence of biological weapons, including anthrax; they have 
that capability.
    Given those realities, and the failure of our own vaccine 
production program in the United States and our immunization 
program on anthrax for our troops, it would follow to me--and I 
just want your reaction to this--that we need to have, in order 
to protect our forces, a very robust vaccine production 
program, and vaccine immunization program for anthrax and 
smallpox before we would put our troops into that kind of 
ground position in Iraq.
    Dr. Cordesman. I would think, Senator, quite frankly at 
this point in time we would take risks, but we would take even 
more risks if we waited. It depends on the timing of the 
vaccine. Certainly, from what I know about smallpox and anthrax 
vaccine stocks, we could immunize the troops we would have to 
deploy.
    The anthrax vaccine may not be 100 percent effective, but I 
do not know of any technical evidence that it would not be 
adequate. When we talked about U.S. forces, however, this is 
another reason why you need decisive forces. You need to be 
able to use air and land power quickly, surgically, and with 
enough effect to break up any kind of cohesive Iraqi 
resistence.
    That does not mean we will not take casualties or we will 
not take risks, but if we wait for the risk we will face in 3 
or 5 years as distinguished from the risk we face now, it is 
not clear that buying more vaccines will really make the 
situation better.
    Senator Hutchinson. I think the vaccine capability could be 
addressed very quickly, in a matter of months, not in a matter 
of years, so that we could render that protection.
    Mr. Duelfer, did you want to say anything?
    Mr. Duelfer. I would agree with what Tony said. I would 
point out that we are in a much worse situation than we were in 
1991.
    Senator Hutchinson. We did not go to Baghdad.
    Mr. Duelfer. True, and that is a problem.
    I would also point out one of the last known smallpox 
outbreaks was in Iraq, so the potential of them actually having 
that is not negligible, it is serious.
    Senator Hutchinson. Thank you.
    Senator Landrieu. Senator Nelson.
    Senator Bill Nelson. Thank you, Madam Chairwoman. Before we 
go into closed session, see if you can answer this for the 
record. It took us about 6 months to build up when we started 
in the Gulf War. Now, if we discovered that Iraq were suddenly 
getting ready with the likelihood to use weapons of mass 
destruction in a 2-month, 3-month period, how would we respond, 
and could we respond with the kind of force that would be 
necessary to neutralize that threat?
    Dr. Cordesman. You have not described whether we are 
talking nuclear or biological, or the numbers involved and the 
delivery systems, but if it is to totally neutralize the 
threat, the answer is no.
    Could you create a climate in which it would be virtually 
impossible for Iraq to conduct coherent military operations and 
use these weapons in large amounts with any effectiveness, with 
the kind of air power targeting and other capabilities we have? 
I think the answer would be yes. That would not necessarily 
deal with the kind of covert attacks that we discussed before 
you came in, Senator, but again, everything depends on the 
quality of our intelligence and our targeting capabilities.
    My guess would be that our intelligence would be so limited 
that we would have to launch an absolutely massive air campaign 
to be certain of suppressing such an offensive capability by 
Iraq as thoroughly as possible. We would have to explain to the 
world that in the process many of the targets we hit were not 
targets we could prove had weapons of mass destruction, and 
that there would be serious collateral damage.
    Let me give you a specific example. One of the possible 
places that you can produce biological weapons is an infant 
formula plant. One of the places you could produce these 
weapons is a pharmaceutical plant. You are not going to leave 
those targets behind in your scenario just because you, say, 
have only a 10 percent confidence that that is where they are 
actually being made rather than 90 percent.
    Mr. Duelfer. There is definitely a history for them 
colocating military and civilian activities. Part of their 
agent production was a place called the Daura Foot and Mouth 
Disease Production Plant, which is a pharmaceutical plant, but 
it had been making biological agent before. Bear in mind, this 
is the mindset that puts civilians in palaces as their own SDI. 
They place civilians right next to military locations. It is a 
heavy price to pay if we were to attack.
    Senator Bill Nelson. I have a number of questions for the 
closed session.
    Senator Landrieu. Thank you. We are going to move now into 
the closed session, but let me just wrap up again by thanking 
you very much for your very candid comments and remarks and for 
the years you have spent in this area, because our President 
and this Congress are going to have to make some very tough 
decisions about the position we are going to take regarding 
this one particular threat.
    Let me express to the members of the subcommittee how much 
I appreciate their help in this exploration, because this 
subcommittee is charged with identifying emerging threats, and 
I remind myself and all of us that Iraq obviously is a threat, 
and we are trying to define what that threat is. There are 
materials all around us in our own Nation that can be used in 
the wrong hands at the wrong time by people who have sometimes 
very difficult motives to understand.
    So we are going to take our time to explore all of the many 
facets of this, but I thought that this hearing was very 
timely. I think we got a lot of good information, and very good 
testimony on the record about how we should and can proceed in 
this regard.
    We are going to now move to closed session, which is in 
room SR-232-A. Let me just say that only those that are 
appropriately cleared will be admitted. Before proceeding to 
the room, let me remind everyone to turn off all electronic 
devices before entering the room. We will adjourn here and 
proceed in about 5 minutes to the next room.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Bob Smith

                             LOW END ITEMS

    1. Senator Smith. Dr. Cordesman, a good deal of the information 
presented to date deals with the production of weapons and Iraq's 
delivery capabilities on the battlefield and in the geographical 
region. Has there has been any information gathered or gleaned about 
the lower-end items associated with Iraq's ability to sustain a WMD 
combat offensive capability--items such as individual protective 
measures, personnel and equipment decontamination capabilities, and so 
on--that would indicate their ability to conduct sustained operations 
over time or do indicators point to a one time, big bang use of 
nuclear, biological, or chemical weapons at a tactical or strategic 
level?
    Dr. Cordesman. Iraq still has very significant supplies of chemical 
weapons defense gear. It is unclear that it has effective vaccines for 
all of its potential biological weapons, although it should have 
sufficient antibiotics to deal with limited casualties from accidents 
in handling anthrax. It is doubtful that Iraq could cope with any 
outbreak from a use of smallpox as a weapon. In general, however, Iraq 
is far more likely to use biological weapons at ranges or distances 
that preclude the need for extensive defensive gear or immunization.
    The real problem for Iraq is that any attack using highly lethal 
biological agents is almost certain to trigger a massive U.S. response, 
or Israeli response should Israel come under attack. The same would be 
true of a nuclear attack. The level of provocation is so high that 
Iraq's leaders would have to see it as a desperate one-time action. The 
same may be true of anything but highly local limited use of chemical 
weapons against Iraqi domestic targets. President Bush has sent a very 
clear message and Iraq must realize that any use of a CBRN weapon could 
trigger a major U.S. military response and effort to overthrow the 
regime.

                         OPERATION DESERT STORM

    2. Senator Smith. Dr. Cordesman, can it be either positively 
confirmed or denied that our troops during Operation Desert Storm were 
exposed to the biological weapons you spoke of in your prepared 
remarks?
    Dr. Cordesman. There is no firm evidence that U.S. or allied troops 
were exposed to biological weapons during Operation Desert Storm, and 
claims that such weapons were used against the Kurds have never been 
documented. This does not mean it is not possible that some weapons 
were used and proved ineffective or that the U.S. caused the release of 
some agent during its air and ground attacks. If this happened, 
however, any casualties are in the noise level of the statistical 
patterns and fluctuations in frequency of symptoms and disease in small 
population samples.

                        IRAQ'S THREAT TO ISRAEL

    3. Senator Smith. Dr. Cordesman, we all recall Iraq's capability 
and practice during Operation Desert Storm of hitting Israel with SCUD-
B ballistic missiles, which were topped with conventional munitions. 
Does Iraq retain the same capability of delivering ordnance onto the 
land of Israel today? Does it have better capabilities? Does it have 
the ability to deliver nuclear, biological, or chemical agents?
    Dr. Cordesman. We really do not know. Many advances in warhead 
design can be accomplished with little visibility and tests without 
missile firings. A test of power or vapor dissemination and fusing 
might also be possible on a missile fired without the permitted 150 
kilometer range and might not be detectable by U.S. intelligence. There 
is no unclassified evidence, however, of actual tests of such weapons 
on a missile warhead.

    4. Senator Smith. Dr. Cordesman, what defenses are we pursuing to 
protect both Israel and our other friends in the region, such as 
Kuwait, Oman, Turkey, and Bahrain, from similar attacks?
    Dr. Cordesman. Upgrades to the Patriot offer significant increases 
in defense in those countries where the Patriot is deployed and the 
U.S. can airlift in more defenses. We have worked with our allies to 
help them develop passive and civil defenses, and we have somewhat 
improved our targeting and strike capability to preempt and suppress 
Iraqi attacks. At this point in time, however, we have no clear idea of 
when we will have truly advanced wide-area theater missile defenses, 
what their cost will be, and how effective they will be. It is easy to 
be pro-missile defense, but we probably will have nothing actually 
ready beyond the Patriot PAC 3 level for the next decade.

                          ANY MEANS NECESSARY

    5. Senator Smith. Mr. Duelfer, when Iraq ignored the United Nations 
resolution and kicked out weapons inspectors the world stood by and 
watched while the Clinton administration did nothing about it. I think 
that was a contributing factor in Usama bin Ladin's thinking that the 
United States was weak and that his cowardly attacks would be 
successful and not responded to. Do you think the United States 
enforcing the resolution by any means necessary is the right thing to 
do?
    Mr. Duelfer. Given the high value the Baghdad regime attaches to 
WMD, the only way they will completely relinquish this capability is 
under sufficient threat that, in effect, threatens the regime. Senior 
Iraqis as much as stated this. The relative absence of consequences to 
Iraqi defiance during the past several years has convinced the regime 
that they can pursue WMD and other activities which erode the UN 
sanctions. In my opinion this trend must change and probably will only 
change when there is a new government in Baghdad.

                             NAVAL THREATS

    6. Senator Smith. Mr. Duelfer, have you seen any indications that 
Iraq--or for that matter the other states in the axis of evil--is 
pursuing mounting and launching its ballistic missiles on ships? What 
would be the technological limitations on such an approach? How close 
are we to seeing this type of threat? How easy would it be for the 
United States to detect such a threat?
    Mr. Duelfer. I have not seen any efforts on the part of Iraq to 
deploy ballistic missiles on ships. Bear in mind they have very limited 
access to the sea and the U.S. would likely interdict any suspicious 
Iraqi ship seeking to pass through the Gulf. Iraq has focused attention 
on studying long range ballistic missiles.

    [Whereupon, at 4:07 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
